APPENDIX
App. A. • Order and Judgment Allowing Defendants' Motion to Dismiss the
Amended Complaint, Eddison Ramsaran, MD. v Candace
Lapidus Sloane, MD. and Joseph P. Carrozza, M.D.,
Massachusetts Superior Court for Middlesex County Civil Action
No.: 1881-CV-03571 (October 3, 2019) ............................................... la
App. B.

Memorandum and Order Affirming Judgment of Dismissal of the
Amended Complaint, Eddison Ramsaran, M.D. v Candace
Lapidus Sloane, MD. and Joseph P. Carrozza, M.D.,
Massachusetts Appeals Court Docket No.: 19-P-1745 (December
31, 2020) .............................................................................................. 3a

App. C.

Notice of Denial of Application for Further Appellate Review
(electronic only), Eddison Ramsaran, M.D. v Candace Lapidus
Sloane, MD. and Joseph P. Carrozza, M.D., Massachusetts
Supreme Judicial Court Docket No.: FAR-28053 (March 11, 2021)
.............................................................................................................. 9a

App. D.

Administrative Magistrate Recommended Decision to Dismiss
Statement of Allegations, Board of Registration in Medicine v.
Eddison Ramsaran, M.D., Division of Administrative Law
Appeals Adjudicatory Docket No. RM-15-672 (October 22, 2018) ... 12a

App. E.

BORIM Response to Recommended Decision and Order of
Remand to the Division of Administrative Law Appeals, In the
Matter of Eddison Ramsaran, M.D., Board of Registration in
Medicine Adjudicatory Case No. 2015-040 (January 24, 2019) ....... 22a

App. F.

Fourth Interim Order, Eddison Ramsaran, M.D. v. Candace
Lapidus Sloane, M.D. and Joseph P. Carrozza, M.D.,
Massachusetts Supreme Judicial Court Docket No. SJ-2017-0349
(March 22, 2019) ................................................................................ 24a

App. G.

Administrative Magistrate's Response to Order of Remand, Board
of Registration in Medicine v. Eddison Ramsaran, M.D., DALA
Docket No. RM 15-672 (April 30, 2019) ............................................ 28a

App. H. BORIM Order Adopting DALA Recommended Decision and
Dismissing Statement of Allegations, In the Matter of Eddison
Ramsaran, M.D., BORIM Adjudicatory Case No. 2015-040 (May
30, 2019) ............................................................................................ 49a

31

App. I.

243 CODE OF MASSACHUSETTS REGULATIONS ("CMR'') 1.01-1.05:
Board of Registration in Medicine; Disciplinary Proceedings ......... 50a

App. J.

801 CODE OF MASSACHUSETTS REGULATIONS ("CMR") 1.01-1.04:
Standard Adjudicatory Rules of Practice and Procedure ................ 60a

32

DOCKET NUMBER

Trial Court of Massachusetts

CLERK'S NOTICE

The Superior Court

1881CV03571
CASE NAME:

Ramsaran, M.D., Eddison vs. Sloane,, M.D., Candace Lapidus et al -

Michael A. Sullivan, Clerk of Court
- Middlesex County
COURT NAME & ADDRESS

TO:

J Peter Kelley, Esq.

Middlesex County Superi_or Court - Woburn

Bruce & Kelley, PC
20 Burlington Mall Rd Suite 225
Burlington, MAO 1803

200 Trade Center
Woburn, MA 01801

You are hereby notified th_at on ·10/03/2019 the following entry was made on the above
referenced docket:
Endorsement on Motion to dismiss the Amended Complaint (#10.0): ALLOWED
as I find that the Defendants are entitled to absolute immunity in the performance of their roles at the Board. I am
not convinced that the Claims are barred by Claim preciusion or by qualified immunity, Final Judgment shall enter
dismissing the Plaintiffs' Complaint. Dated: Oct.2, 2019.and notices mailed 10/3/19
Judge: Henry, Hon. Bruce R

DATE !SSUED

10/03/2019

ASSOCIATE JUSTICE/ ASSISTANT CLERK

Hon, Bruce R Henry

SESSION PHONE#

.·-

(781 )939-2781
A

'"-'Uft~Y A
SCV016_X11 0812014

JUDGMENT ON MOTION TO DISMISS
DOCKET NUMBER

_!j_,

Trial Court of Massachusetts
The Superior Court
Michael A Sullivan, Clerk of Court

1881 CV03571

$

Middlesex County
COURT NAME & ADDRESS

CASE: NAME

· Middlesex County Superior Court - Woburn
200 Trade Center
Woburn, MA 01801

Rarnsaran, M.D., !:ddison

vs.
. Sloane., M.D., Candace Lapidus et al

JUDGMENT FOR THE FOU.OWING DEFENDANT($)

Sloane,. M.D., Candace Lapidus
Carrozza, Jr., M.D., Joseph P.

..

J_UDGMENT AGAINST THE FOLLO'MNG PLAINTIFF($)

Ramsaran, M.D., Eddison

'
This action came on before the Court, Hon. Bruce R Henry, presiding, and upon review of the motion to dismiss pursuant to
Mass. RCiv.P. 12(b),
It is ORDERED AND ADJUDGED:
That the Complaint be and hereby is DISMISSED with prejudic~.

.
DATE JUDGMENT ENTERED

10/03/2019
OateJTime Printed: 10-03-201912:20:04

CLERK OF COURTS/ AS,F. C l t ,

X /"Vl/) d J..J.,g)..{

'.

\.

~

0

ov
2a

SCV083\ 03/2016

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
19-P-1745
EDDISON RAMSARAN
VS.

CANDACE LAPIDUS SLOANE & another. 1
MEMORANDUM AND ORDER PURSUANT TO RULE 23.0
The plaintiff, a physician licensed in the Commonwealth of
Massachusetts, brought this suit against Joseph P. Carrozza,
Jr., M.D., a member of the Board of Registration in Medicine
(board), and Candace Lapidus Sloane, M.D., the chair of the
board.

The first amended verified complaint included counts for

tortious interference with advantageous relationships, malicious
prosecution, and violations of 42 U.S.C. § 1983.

The plaintiff

alleged wrongdoing by defendant Carrozza, acquiesced to by
defendant Sloane.

The defendants filed a motion to dismiss,

which was allowed by the motion judge on the ground of absolute
immunity.

1

The plaintiff has now appealed.

Joseph P. Carrozza, Jr.

3a

APPENDIX B

The plaintiff alleged that during board proceedings,
defendant Carrozza acted as a "covert expert," bringing to bear
his own expertise and "outside information which was not
contained in the Board's investigatory files and which was not
considered by the Board as a whole" in deciding as a member of
the complaint committee (CC) that sufficient cause existed to
issue a statement of allegations

(SOA) against the plaintiff,

proposing a consent order (CO) with onerous conditions in lieu
of moving forward with the SOA, and ultimately recommending that
the board issue an SOA when the plaintiff refused to agree to
the CO.

The plaintiff alleged that some or all of this was

wrongful.
It is well established that when a member of the board acts
in a prosecutorial or adjudicative capacity, he or she is
absolutely immune from suit.

See Bettencourt v. Board of

Registration in Med., 904 F.2d 772, 782, 784

(1st Cir. 1990)

(holding that board members acting in their "quasi-judicial"
capacities enjoy absolute immunity and explaining that "the
[Supreme] Court has recognized that there are some officials
whose special functions require a full exemption from liability
Such officials include

certain 'quasi-judicial'

agency officials who, irrespective of their title, perform

4a

functions essentially similar to those of judges or prosecutors"
[quotation, citation, and emphasis omitted]) . 2
In evaluating the judge's ruling on the motion to dismiss,
we take all the facts in the complaint and any reasonable
inferences that may be drawn therefrom as true, viewing them in
the light most favorable to the plaintiff.
Commonwealth, 56 Mass. App. Ct. 486, 487

See Jacome v.

(2002).

The question

before us is whether Carrozza was discharging a prosecutorial or
adjudicative function when undertaking the allegedly wrongful
acts.
The plaintiff alleged that an investigation of the
plaintiff was undertaken by a board investigator between 2011
and 2014.

Following the transmission to the CC of the evidence

gathered by the investigator and the board expert's report
containing recommended board actions, the complaint alleged that
Carrozza used his "covert expertise" and information received
outside of committee proceedings to propose a CO that exceeded

2

In Bettencourt, 904 F.2d at 783-784 and n.13, the court also
concluded that "enough checks on malicious action by Board
members exist to warrant a grant of absolute immunity for the
Board members' actions in their adjudicatory capacities," and
that "[t]o the extent the claims relate to the Board members'
roles as 'public' prosecutors, Werle v. Rhode Island Bar Ass'n,
755 F.2d 195, 198-99 (1st Cir. 1985), we agree with the district
court that the Board members' actions were intimately connected
with the advocacy phase of the judicial process.
See id.;
Horwitz v. Bd. of Med. Examiners of State of Colo., 822 F.2d
1508, 1515 (10th Cir.), cert. denied, 484 U.S. 964, 108 s. Ct.
453, 98 L.Ed.2d 394 (1987) ." We agree with this analysis.

5a

the recommendations made by the board's only recognized expert,
and to recommend that the board issue an SOA that was
unsupported by the findings of the board's investigation.
We conclude that all of the actions undertaken by Carrozza
were undertaken in a prosecutorial, or quasi-judicial, capacity.
Determining whether to bring a charge, and assessing and
negotiating terms by which to settle a matter short of an
adversarial proceeding, are all ordinary functions of a
prosecutor within our legal system.

The complaint alleged

wrongdoing in the way in which Carrozza carried out these
functions.

We express no opinion about whether anything that

Carrozza is alleged to have done would have been wrongful.

But

even if it were, the conduct alleged -- relying on his own
expertise, making inquiry at a regulatorily authorized hearing
of the plaintiff himself, obtaining information about the
plaintiff from third parties following the completion of the
investigator's investigation -- were all properly considered
part of the exercise of Carrozza's prosecutorial function.
Consequently, we see no error in the motion judge's
conclusion that the defendants are protected by absolute quasijudicial immunity.
F. Supp. 2d 276, 287

See Johnson v. Board of Bar Overseers, 324
(D. Mass. 2004)

(holding that officials at

Massachusetts Office of Bar Counsel and Massachusetts Board of
Bar Overseers enjoyed absolute quasi-judicial immunity from

6a

§ 1983 actions).

211-212

(1989)

See also LaLonde v. Eissner, 405 Mass. 207,

(holding that psychiatrist appointed by Probate

Court to perform psychiatric evaluation enjoyed absolute quasijudicial immunity from negligence action)

.3

Judgment affirmed.4
By the Court (Rubin, Neyman &
Ditkoff, JJ.5),

Clerk

Entered:

December 31, 2020.

3

To the extent the judge relied on materials attached to the
complaint, or materials of which he could properly take judicial
notice, he was not required to convert the 12 (b) (6) motion
into one for summary judgment.
See Mass. R. Civ. P. 56, 365
Mass. 824 (1974).
See also Reliance Ins. Co. v. Boston, 71
Mass. App. Ct. 550, 555 (2008) ("while the allegations of the
complaint generally control in evaluating a motion under rule
12(b) (6), matters of public record.
and exhibits attached
to the complaint, also may be taken into account" [quotation and
citation omitted]).
4 Given the conclusion articulated in the text, we need not
address the alternative grounds for affirrnance urged by the
defendants.
5 The panelists are listed in order of seniority.

7a

Commonwealth of Massachusetts
Appeals Court for the Commonwealth
At Boston
In the case no. 19-P-1745
EDDISON RAMSARAN
vs.

CANDACE LAPIDUS SLOANE & another.
Pending in the =S~u~p_e_r_i_o_r_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
Court for the County of Middlesex

----------------------

Ordered, that the following entry be made on the docket:
Judgment affirmed.

By the Court,

D=-y.,J._

<::::j"~- ·

<:< ~~,

()late December 31, 2020.
v

Sa

Cl erk

From:

SJCCnmmClerk@sic-state ma us

To:
Subject:
Date:

Alex Vglpe

FAR-28053 - Notice: FAR denied
Thursday, March 11, 2021 6:03:44 PM

Supreme Judicial Court for the Commonwealth of Massachusetts
RE:

Docket No. FAR-28053

EDDISON RAMSARAN
vs.
CANDACE LAPIDUS SLOANE & another
Middlesex Superior Court No. 1881 CV03571
A.C. No. 2019-P-1745
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please take note that on March 11, 2021, the application for further appellate review was denied.
Francis V. Kenneally Clerk
Dated: March 11, 2021
To: J. Peter Kelley, Esquire
Alexander Palmer Volpe, Esquire
Jesse Mohan Boodoo, A.A.G.

9a

APPENDIX C

SUPREME JUDICIAL COURT

for the Commonwealth
Case Docket

EDDISON RAMSARAN vs. CANDACE LAPIDUS
SLOANE & another
FAR-28053

Bottom

CASE HEADER
Case Status

FAR denied

Status Date

03/11/2021

Nature

Tort: General

Entry Date

01/21/2021

Appeals Ct Number 2019-P-1745
Response Date

02/01/2021

Appellant

Plaintiff

Applicant

Plaintiff

Citation

487 Mass. 1102

Case Type

Civil

Full Ct Number
TC Number

1881 CV03571

Lower Court

Middlesex Superior Court

Lower Ct Judge

Bruce R. Henry, J.

INVOLVED PARTY
ATTORNEY APPEARANCE
Eddison Ramsaran

10a

Plaintiff/Appellant
J. Peter Kelley, Esquire
Alexander Palmer Volpe, Esquire
Candace Lapidus Sloane
Defendant/Appellee
Jesse Mohan Boodoo, A.A.G.
Joseph P. Carrozza Jr.
Defendant/Appellee
Jesse Mohan Boodoo, A.AG.

DOCKET ENTRIES
Entry Date

Paper

01/21/2021

Entry Text
Docket opened.

01/21/2021

#1

FAR APPLICATION filed for Eddison Ramsaran by Attorney J Peter Kelley,
Alexander Palmer Volpe.

02/01/2021

#2

LETTER in Response filed for Candace Lapidus Sloane and Joseph P. Carrozza
Jr. by Jesse Boodoo, A.AG ..

03/11/2021

#3

DENIAL of FAR application.

As of 03/19/2021 12:20pm

Top

11a

COMMONWEALTH OF MASSACHUSETTS
Suffolk, ss.

Division of Administrative Law Appeals
1 Congress Street, 11th Floor
Boston, MA 02114
(617) 626-7200
Fax: (617) 626-7220

Board of Registration in Medicine,
Petitioner

Docket No: RM-15-672

v.
Eddison Ramsaran, M.D.
Respondent
Appearance for Petitioner:
Gloria Brooks, Esq.
Complaint Counsel
Board of Registration in Medicine
200 Harvard Mill Square, Suite 330
Wakefield, MA 01880
Appearance for Respondent:
J. Peter Kelley, Esq.
Mary A. Azzarito, .Esq.
Bruce & Kelley, P.C.
20 Mall Road, Suite225
Burlington, MA 01803
Administrative Magistrate:
Edward B. McGrath, Esq.
Chief Administrative Magistrate
Summary of Recommended Decision
At the close of the Petitioner's case, I find that the Petitioner failed to meet its burden of proof
because, based upon the Petitioner's expert's testimony and my obse_rvations of the expert witness
testifying, I find that he did not know the applicable standard of care and I give his testimony no
weight. I, therefore, ALLOW the Respondent's Motion to Dismiss at the close of the Petitioner's
· case and recommend that the Statement of Allegations be DISMISSED.

12a

APPENDIX D

Brd ofReg. In Med v. Eddison Ram.saran, MD.,

RM-15-672

Recommended Decision

I Procedural history
The Board of Registration in Medicine ("BORlM") served a Statement of Allegations on the
;

Respondent and referred this matter to the Division of Administrative Law Appeals ("DALA") on
December 18, 2015. The Statement of AUegations alleged that the Respondent's care of patients A
to I failed to meet the Standard of Care and alleged that he failed to maintain proper medical
records. On January 11, 2016, the Respondent filed his Response to the Statement of Allegations,
denying the allegations contained in the Statement of Allegations.
On December 12, 2016, the Respondent moved for summary decision arguing that based upon
the Petitioner's expert opinion disclosure the Petitioner was unable to meet its burden of proof as a
matter of law. The Petitioner· opposed the motion to dismiss. Confusion over the status of the
Petitioner's expert 'disclosure and other discovery disputes delayed the matter. I denied the motion
to dismiss, because I found that the expert disclosure met basic disclosure requirements. S,ee Kace v.

'
Liang, 472 Mass. 630,632
(2015) (expert disclosure sufficient although not as clear or as complete
as it could have been); See Resendes v. Boston Edison Co,, 38 Mass App. Ct. 344,352,648 N.E.2d
757, 763 (1995); Beuapre v. CliffSmith Associates, 50 Mass. App. Ct. 480, 484-85, 738 N.E.2d
753, 76] (2000). I

'

The matter went to an evidentiary hearing, which began on September 25, 2018. The Petitioner
called the Respondent and its expert witness to testify. The Petitioner introduced and I entered into
evidence: medical records of Patients A to I (Ex. I) and two reports drafted by the Petitioner's

1

The Respondent raised arni stated that he was ready to offer evidence as to unfair prejudice he
alleges that he suffered because oflate and incomplete expert witnes.s disclosures and other
discovery responses of the Petitioner. As a result of this decision, he did not have an opportunity to
offer that evidence. and I have not considered those issues in reaching this decision.
2

13a

Brd ofReg. In Med v. EddisonRamsaran, MD.,

RM-15-672

medical expert (Exs. 2 and 2A). I admitted a third report authored by the Petitioner's expert witness
and offered by the Respondent (Ex. 2C). 2 I also admitted the Petitioner's medical expert's
curriculum vitae (Ex. 3). The Petitioner rested its case on September 28, 2018.
Concerned that the Petitioner's expert testimony was insufficient on the issue of the applicable
standard of care, I ordered an expedited copy of the transcript and gave the parties until the close of
business on October 2, 2018 to brief the issue. The parties took advantage of that opportunity and ·
the Respondent filed a motion to dismiss pursuant to 801 CMR 1.01 (7)(g)l and the Petitioner filed
an Opposition to that motion on October 2, 2018. The Petitioner asked for an additional week to
respond further to the Motion to Dismiss and I granted that request. On October 9, 2018, the
Petitioner filed its Opposition to the Respondent's Mo•on to Dismiss. On October 10, 2018, the
Respondent filed a ·motion for leave to file a reply brief accompanied by the reply brief. I allowed
that motion and the reply brief was filed. On October 17, 2018, the Petitioner filed its Opposition to
the Respondent's Reply Brief.

IL Findings of/act'
Based upon ·the evidence presented, including the witnesses' testimony, my assessment of their
ctedibility, and reasonable inferences drawn from the evidence, I make the following findings of

fact:
1. On direct examination, the Petitioner's attomey·asked the Petitioner's expert to define the

standard of care. The Petitioner's expert responded:
When you Google it there's many different definitions, but the standard of care,
basically, is a consensus opinion among experts based on guidelines that have ·
been agreed upon on how to best care for patients. And it's a _consensus opinion
oflocal experts as to what is the best treatment algorithm for patients.

2

There is no Ex. 2B.
3

14a

Brd of Reg. In Med v. Eddison R«msaran, MD.,

RM-15-672

(Tr. v. II p._ 2411. 6-12.)

2. Two days later, on redirect, the Petitioner's expert witness defined the standard of
care as follows:
It's the type_and level of care that a reasonably competent, skilled, health care
physician•with a similar background in ·a community, a similar community would
provide under those circumstances.
(Tr. v. IV p. 7 IL 5-8.)

3. The Petitio~er' s expert reviewed Patients A to I's cases several times over the last seven
years.
(Tr. v. III p. 911. 16-19.)

4. He reviewed medical literature during that period and factored it into his opinion as to the
standard of care.
(Tr. V. III p. 1011.4-13 p. 1411. 1-4.)
5. The Petitioner's expert had all the materials he, needed to reach his opinions in 2012 when
he issued his first report.
(Tr. v. III p. 111. 21-p.121.1.)

6. The Petitioner's expert changed some of his opinions several times and as recently as two
weeks before the hearing.
(Tr. v. III p. 1411. 4-11.)

7. In 2013, the Petitioner's expert opined that IVUS (intravascular ultrasound) was not
indicated iri Patient A's case, but in 2016 he opined that it was indicated.
(Tr. v. III p. 43 II. 9-17.)
8. He testified at hearing on cross-examination that it was in the "grey area."
(Tr. v. III

p. 43 I. 9-p. 44 I. 7.)
4

15a

Brd. of Reg. In Med. v. Eddison Ramsaran, }4.D.,

RM-15-672

9. In 2013, the Petitioner's expert opined that a high risk PCI (percutaneous coronary
intervention) could be entertained in Patient A's case, but he testified at the hearing it was
below the standard of care to perfonn it. When confronted with his 2013 opinion, he
testified: "I would not have done it. I would not have done it. It could be entertained. I
would not have done it.''
(Tr. v. III p. 53 11. 9-16.)
10. The Petitioner's expert's opinion concerning the use of a coronary stent in the common
femoral artery in Patient B's case has changed.
(Tr. v. III p. 5711. 13-20 and p. 58 11. 13- p. 60 l. 12.)
11. The Petitioner's expert wiiness opined,in his reports dated October 15, 2012, December 16,
•

I

2013 and September 19, 2016 that the PCI procedure performed on Patient I "was
indicated." '
(Exs. 2 and;2A.)
12. In his report dated September 10, 2018, he opined that "The PCI procedure was not clearly
indicated." ·

(Ex. 2C.)
13. On direct examination, the Petitioner's expert witness testified that intervention was not
necessary for Patient I.
(Tr. v. II p. 175 IL 6-14).
14. On cross-eiamination, the Petitioner's expert witness testified that the changes to his reports
were not substantial and then admitted that changing his opinion as to whether a procedure
was indicated or not indicated was substantial.
(Tr. v. III p. 20 11. 1-8.)

5

16a

Brd ofReg. In Med. v. Eddison Ramsaran, MD.,

RM-15-672

III. Analysis
Pursuant to G.L. c. 112, § 5, eighth para, (h) and 243 CMR l.03(5)(a) 3, BORJM may
discipline a physician upon proof satisfactory to a majority of the Board, that he engaged in condµct
that places into qu~stion his competence to practice medicine, including, but not limited to gross
incompetence, or with gross negligence on a particular occasion or negligence on repeated
occasions. See Board ofRegistration in Medicine v. Ronald Nasif, MD., RM-16-163 at *12 (Div.
Adm. Law App. Dec., May 11, 2017).
Physicians must meet the standard of care, which is "the degree of care and skill of the average
qualified practitioner, taking into account the advances in the profession." Brune v. Belinkoff, 354
Mass. 102,109,235 N.E.2d 793, 798 (1968). The standard of care is the level of care and skill that
physicians in the same specialty commonly possess. Palandijan v. Foster, 446 Mass. 100, 104-05,
•

j

842 N.E.2d 916, 920-21 (2006);'McCarthy v. Boston City Hospital, 358 Mass. 639,643, 266
N.E.2d 292, 295 (1971).
The Supreme Judicial Court has held that: "Due process rights are implicated in administrative
proceedings that rriay affect the right to practice medicine." Ingalls v. Board of Registration in

. Medicine,

445 Mass. 291,296, 837 N.E.2d 232,236 (2005). The Legislature has mandated that

DALA shall provide the forum for the impartial evidentiary hearings in which BORlM seeks to
discipline physicians. Acts. 1989, c. 653, § 233. BOR1M's regulations provide, "After the Board
issues a Statement'of Allegations, the Board shall conduct all hearings in accordance with 801 CMR
1.00: Standard Adjudicatory Rules of Practice and Procedure." 243 CMR 1.04. I note that "243
Code Mass. Regs.

§ 1.00 'is based on the principle of fundamental fairness to physicians and

patients and shall be construed to secure a speedy and just disposition."' Arnoffv. Board of
6

17a

Brd. of Reg. In Med. v. Eddison Ramsaran, MD.,

RM-15-672

Registration In Medicine, 420 Mass. 830, 835, N.E.2d 594, 598 (1995).
One provision of the Standard Adjudicatory Rules of Practice and Procedure which governs
the conduct ofBORIM hearings at DALA is 801 CMR 1.01(7)(g)l. That regulation provides:
Upon completion by the Petitioner of the presentation of his evidence, the
Respondent may move to dismiss on the ground that upon the evidence, or the
law, or bot4, the Petitioner has not established his case. The Presiding Officer
may act up9n the dismissal motion when presented, or during a stay or
continuance of proceedings, or may wait until the close of all the evidence.
Since the Petitioner in this case has the burden of p~oof, it had to estabHsh, by a preponderance
of the eviden_ce, the standard of care and that the Respondent failed to me~t that standard. See

Craven v. State Ethics Commission, 390 Mass. 191,200,454 N.E.2d 471,476 (1983)
(preponderance of ~vidence is generally standard at administrative proceedings). In prder to_ meet
this burden, the Petitioner must produce sufficient evidence that "it is made to appear more likely or
probable - in the sense that actual belief in its truth, derived from the evidence, exists in the mind or
minds of the tribunal, notwithstanding any doubt that may linger there." Sargent v. Massachusetts

Accident Co., 307 Mass. 246, 250, 29 N.E.2d 825, 827 (1940). A fact is proved by a

'
preponderance of the evidence if the tri,bunal has "a firm and abiding conviction in the truth of' the
proposition advanced by the Petitioner. Stepakoffv. Kantar, 393 Mass. 836, 843, 473 N.E.2d 1131,
1136 (1985). It is :well settled that to establish the standard of care and a deviation from it expert
medical testimony fa required. Palandijan, supra at 105-06, 842 N.E.2d at 921.
In a jury case, when deciding wh,ether to Jet an offered expert witness testify, a judge has broad
discretion but a "crucial issue is whether the witness has sufficient educalion, training, experience
and familiarity witli the subject matter of the testimony," Letch v. Daniels'. 401 Mass. 65, 68,514
N.E.2d 675, 677 (1987). The question whether the basis of the doctor's opinion is sound goes to the
weight of the evidence, not its eidmissibility." Bakerv. Commercial Union Ins.

7

18a

c•. , 382 Mass. 347,

Brd ofReg. In Med. v: Eddison Ramsaran, MD.,

RM-15-672

351, 416 N.E.2d 187, 190 (1987). In the instant case, however, as the finder of fact, I have to
decide how much weight to give the testimony of the Plaintiff's expert witness: Western

Massachusetts Lifecare Corp. v. Assessors ofSpringfield, 434 Mass 96, 107:08, 747 N.E.2d 97,
106-07 (2001); Simmons v. Monarch A1ach. Tool Co., 413 Mass. 205, 213-14, 596 N.E.2d 318,323
(1992); see Anastasi v. Anastasi, 79 Mass. App. Ct. 1101 at* 1 (Rule 1:28 Dec., Mar. 8,201 l)(fact
finder decides weight and credibility of expert testimony); 45 Rice Street Realty Trust v. Board of

Assessors City o_fCambridge, 2007 WL 4157669 * 21 (App. Tax Bd. Nov. 20, 2007) (analogizing
801 CMR 1.0 J(7)(g) I to a motion for directed finding). "In granting a motion to dismiss at the close
of evidence in a nonjury trial, a [finder of fact] is entitled to 'weigh the evidence and resolve all
questions of credibility, ambiguity, and contradiction in reaching a decision."' Delano GrllWers'

Coop. Winery v. Supreme Wine Co., 393 Mass. 666,676,473 N.E.2d 1066, 1073 (1985) citing
Ryan, Elliott & Co.· v. Leggat, McCall & Werner, Inc., 8 Mass. App.

Ct. 686,689,396 N.E.2d 1009

(1979). In this case, l will not give the Petitioner's expert testimony any weight.
In rejecting un'contradicted expert medical testimony, I provide explicit fmdings why I do so.

See Robinson v. Contributory Retirement Appeal Bd., 20 Mass. App. Ct. 634, 639, 482 N.E.2d 514,
518 (] 985). Based 'upon the Petitioner's expert's testimony and my observations of him when he
testified and was cross-examined, I find that the Petitioner's expert witness did not understand the
standard of care. There is no dispute that the Petitioner's expert provided two definitions of the
standard of care when he testified. (Findings 1 and 2); see Respondent's Opposition to the
Respondent's Motion to Dismiss dated October 2, 2018 p. 2.
I am not persuaded by the Petitioner's arguments that its expert's opining as to two different
standards of care should be ignored as a misstatement or because he had never testified as an expert
before. I note that there was no testimony to explain the alleged misstatement. There is only

8

19a

Brd. of Reg. In Med v. Eddison Ramsaran, MD.,

RM-15-672

counsel's unsupported argument. I also note that the first time the expert testified as to the definition
of standard of care he mentioned googling it. The Petitioner's expert had years to consider the
definition of standard of care in this case. In fact, the quality of the expert's opinion was raised in a
motion to dismiss. There is no excuse that justifies ignoring portions of the Petitioner's expert's
testimony during the evidentiary hearing
There was other evidence that convinced me the Petitioner's expert wi1ness did not understand
the standard of care. The fact he wrote several different reports, based upon the same information
but containing diff~rent opinions undercut his credibility. In addition, during cross-examination,
when confronted with inconsistencies in his reports, he became defensive and appeared evasive, At
one point, testifying that a procedure he had opined on direct examination fell below the standard of
care "could be entertained. I would not have done it." (Finding# 8). At another point, he testified
that changes of his opinion were not substantial, even though the changes included whether a
procedure was indicated or not. (Finding# 13).
I am not persuaded by the Petitioner's argument that "the Petitioner, as the non-moving party,
is entitled to have the magistrate view the evidence in the light most favorable to it." Petitioner's
Opposition to Respondent's Reply Briefp. 3. The Petitioner cites a case dealing with a motion for
summary judgment pursuant to M.R.C.P. 56 and which is, therefore, inapposite to the instant case.

Joshua Bardige v. Performa1!ce Specialists, Inc., 74 Mass. App. Ct. 99, 101, 904 N.E.2d 464, 466
(2009). In addition, to the extent Bardige has a bearing on this case, I note that the Appeals Court
affirmed the granting of summary judgment, ruling that defects in the Plaintiffs expert evidence
warranted summary judgment. Id at 104, 904 N.E.2d at 467-68.
1n the Opposition to the Respondent's Motion to Dismiss filed on October 9, 2018, the

Petitioner asserts tliat it has the right to a full and fair hearing. The Petitioner has had three years to
9

20a

Brd. of Reg. In Med. v. Eddison Ramsaran: MD.,

RM-15-672

prepare its case ancj several days to present it. It would be unfair to the Respondent to force him to
present his case under these facts. Moreover, it would be unfair to litigants in other cases and a
!

waste of DALA' s resources to allow the evidentiary hearing to go forward.
In the instant case, the Petitioner has not established its case, because of the
failure of the Petitione;'s expert testimony, and I, therefore, ALLOW the Respondent's
Motion to Dismiss·at the close of the Petitioner's case, pursuant to 801 CMR l.01(7)(g)l.
Conclusion
For the reasons set out above, I recommend that the statement of allegations be ·
DISMISSED.

DIVISION OF AD:MIN'ISTRAT!VE LAW APPEALS

~;:lfr~
Edward B. McGrath
Chief Administrative Magistrate

Dated: October 22; 2018

21a

COMMONWEALTH OF MASSACHUSETTS
BOARD OF REGISTRATION IN MEDICINE
Middlesex, ss.

Adjudicatory Case

No. 2015-040

)

In the Matter of

)

Eddison Rainsaran, M.D.

)
)

Order of Remand to the Division of
Administrative Law Appeals

)

This matter came before the Board, on the basis of the Administrative Magistrate's
(Magistrate's) Recommended Decision on Respondent's Motion to Dismiss (Recommended
Decision), dated October 22, 2018. At its Janumy 10, 2019 meeting, the Board heard from the
Parties. After full consideration of the Respondent's Motion to Strike Petitioner's Objections to
the Recommended Decision (Motion to Strike), and after acknowledging that the Objections
were submitted approximately fifteen minutes after the deadline for submission, the Board
denied the Motion to Strike at its January 24, 2019 meeting.
At the January 10, 2019 and·January 24, 2019 meetings, the Board fully considered the
Recommended Decision, Petitioner's Objections to the Recommended Decision (Objections),
the Respondent's Response to Petitioner's Objections to the Recommended Decision
(Response), and the Parties' Memoranda on Disposition, the Board determined that the
Recommended Decision does not adequately address the allegations, in the December 17, 2015
Statement of Allegations that the Respondent has:
•

violated 243 CMR 2.07 (13)(a), by failing to maintain a medical record for each
patient, which is adequate to el)able the licensee to provide proper diagnosis and
treatment;

•

violated 243 CMR I.03(5)(a)18, by committing misconduct in the practice of
medicine; and

•

engaged in conduct that undermines the public confidence in the integrity of the
medical profession, pursuant to Sugarman v. Board ofRegistration in Medicine,

22a

APPENDIX E

422 Mass. 338 (1996), Levy v. Board of Registration in Medicine, 378 Mass.
519 (1979) and R«ymond v. Board of Registration in lv.[edicine, 387 Mass. 708
(1982).
The Board REMANDS the matter to the Division of Administrative Law Appeals for
whatever further proceedings are necessary in order for the Administrate Magistrate to elaborate
on his findings regarding the aforementioned allegations.

Dated: January 24, 2019

~~~.mo
Candace Lapidus Sloane, M.D.
Board Chair

2

23a

'filqe ([mnnumfueaHly .of ~assarlfuseib:,
SUPREME JUDICIAL COURT
FOR SUFFOLK COUNTY

JOHN ADAMS COURTHOUSE
ONE PEMBERTON SQUARE, SUITE

1300

BOSTON, MASSACHUSETTS 02 I 08-1 707

MAURA S. DOYLE

CASE: INFORMATION (617) 557-t 100

FACSTMIL'E (617) S57•1117

WWW.SJCCOUNTYCLERK.COM

CLE::~K

ATTORNEY SERVJCES (617) 557-1050

March 22, 2019

FACSJMll..,E {617) 557-1055

Mary A. Azzarito, Esquire
Bruce & Kelley, PC
20 Mall Road, Suite 225
Burlington, MA 01803
RE:

No. SJ-2017-0349
EDDISON RAMSARAN, M.D.

v.
BOARD OF REGISTIRATION IN MEDICINE
I

No.DIVISION OF ADMINISTRATIVE I,AW APPEALS: RM-15-672 CHIEF
ADMINISTRATIVE MAGISTRATE: EDWARD B. MCGRATH

NOTICE OF DOCKET ENTRY
You are hereby notified that on March 22, 2019, the following
was entered on the docket of the above referenced case:
FOURTH INTERIM ORDER: as on file.

To:

O

(Gaziano, J.)

J. Peter Kelley',

Esquire
Mary A. Azzarito, Esquire
Gloria Brooks, Esq~ire
Amy Spector, Assistant Attorney General

24a

APPENDIX F

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
FOR SUFFOLK COUNTY
No. SJ-2017-0349

SUFFOLK, SS.

EDDISON RAMSARAN, M.D.

v.
BOABD OF REGISTRATION IN .MEDICINE

FOURTH INTERIM ORDER

This matter came before th·e Court, Gaziano, J., presiding, on
the petitioner Eddison Ramsaran, M.D. 's motion for writ of mandamus
pursuant to c. 249, § 5, and written request for hearing filed on
January 18, 2019.
Prevtously in this matter, the Court issued interim orders,
which among other things stayed this matter pending the petitioner's
hearing before the Division of Administrative Law Appeals

(DALA) and

the respondent Board of Registration in Medicine's consideration and
final _determination of: the admini~trative proceedings, including the
DALA Chief Administrative Magistrate's recommended decision.

In

February, 2019, the parties filed updated status reports advising
· that the respondent remanded the matter back to DALA "for whatever
further proceedings are necessary in order for the Chief

25a

Administrative Magistrate to elaborate on his findings" in regard_s to
certain allegations set forth in the Statement of Allegations.
A hearing was held before the Court on March 12, 2019, attended
by the parties.

During the hearing, the parties reported that the

DALA Chief Administrative Magistrate held a "IJost-remand conference"
with the parties on March 4, 2019 and the remand presently is under
advisement.
the

PALA

Both parties reported that additional_ hearings before

Chief .Administrative Magistrate are not necessary for

purposes of the remand.

Both parties also reported that no timeline

was articulated by the DALA Chief Administrative Magistrate for when
he would elaborate on the findings contained in his recommended
decision.
Upon consideration thereof, it is ORDERED that the respondent
shall file a status report within ten (10) days of the issuance of
the DALA Chief Administrative Magistrate's revised recommended
decision, or any additional findings, with the Court.

Said status

report shall attach a copy of the revised recommended decision or any
additional findings and specify the timeline for.the respondent's
considerat"ion and final determination of the proceedings.

In view of

the protracted nature of the disciplinary proceedings, the Court
strongly encourages the respondent to prioritize its consideration
and final determination of the proceedings.

See Padmanabhan v. Board

of Registration in Medicine, 477 Mass. 1026, 1028 (2017).

In the

event that the respondent's c.onsideration and final determination of

26a

the proceeding_s are scheduled for a meeting more than thirty days
from the issuance of the recommendation by the DALA Chief
Administrative Magistrate, the respondent shall articulate explicitly
the reasons for the additional time..

The petitioner may file his own

status report but is not required to do so.
The stay of this matter per the Court's March 23, 2018 interim
order remains in effect.
By the Court,

~JI/: . -~
Frank M. G a ~

Associate Justice
ENTERED:

March 22, 2019

27a

COMMONWEALTH OF MASSACHUSETTS
Suffolk, ss.

Division of Administrative Law Appeals
1 Congress Street, 11th Floor
Boston, MA 02114
(617) 626-7200
Fax: (617) 626-7220

Board of Registration in Medicine,
Petitioner

Docket No: RM-15-672

V.

Eddison Rarnsaran, M.D.
Respondent

Appearance for Petitioner:
Gloria Brooks, Esq.
Complaint Counsel
Board of Registration in Medicine
200 Harvard Mill Square, Suite 330
Wakefield, MA 01880

Appearance for Respondent:
J. Peter Kelley, Esq.
Mary A. Azzarito, Esq.
Bruce & Kelley, P.C.
20 Mall Road, Suite 225
Burlington, MA 01803

Administrative Magistrate:
Edward B, McGrath, Esq.
Chief Adminisrative Magistrate

Response to Order of Remand

l

Introduction

In response to the Board of Registration in Medicine's ("Board") Order of Remand dated
January 24, 2019, I say as follows:
On October 22, 2018, after several days of hearing, pursuant to 801 CMR 1.01
(7)(g) 1, I allowed the Respondent's Motion to Dismiss at the close of

28a

the Petitioner's

APPENDIX G

Bd ofReg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

case and issued my decision recommending that the Statement of Allegations in this
matter be dismissed, because I did not find the Petitioner's expert testimony credible. In
writing the recommended decision, I determined not to address the Respondent's
testimony. Although the Respondent was called to testify by the Petitioner, he did not
provide any testimony supporting the Petitioner's position that he violated the applicable
standard of care and, therefore, his testimony was not part ofmy analysis. In the
recommended decision, I set out the facts that I found that resulted in my decision to
recommend dismissal. They were Findings 1-14 below. In response to the Order of
Remand, I state that I found the Respondent's testimony to be credible and persuasive
and I provide findings of fact that address the Respondent's testimony below, Findings
15-141.
The Board's Order of Remand directed me to elaborate on my recommended decision and
stated that:

•

•
•

[T]he Board had determined that the Recommended Decision does Iiot adequately
address the allegations in the Statement of Allegations that the Respondent has:
violated 243 CMR 2.07(13)(a) by failing to maintain a medical record for each
patient which is adequate to enable the licensee to provide proper diagnosis and
treatment;
violated 243 CMR l.03(5)(a)l8, by committing misconduct in the practice of
medicine; and
engaged in conduct that undermines the public confidence in the integrity of the
medical profession, pursuant to Sugarman v. Board of Registration in Medicine,
422 Mass. 338 (1996), Levy v. Board ofRegistration in Medicine, 378 Mass. 519
(1979) and Raymond v. Board ofRegistration in Medicine, 387 Mass. 708 (I 982).

On March 4, 2019, I held a Post-Remand conference.
Elaborating on the Recommended Decision, I say that the Petitioner failed to
persuade me that the Respondent committed the violations referred to above. To meet its
burden of proof, the Petitioner had to produce reliable expert medical testimony and,
2

29a

Bd. ofReg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

since it failed to do so, I recommended dismissal.

11

Findings offact

Based upon the evidence presented, including the witnesses' testimony, my assessment of
their credibility, and reasonable inferences drawn from the evidence, I make the following
findings of fact:

I. On direct examination, the Petitioner's attorney asked the Petitioner's expert to define the
standard of care. The Petitioner's expert responded:
When you Google it there's many different definitions, but the standard of care,
basically, is a consensus opinion among experts based on guidelines that have
been agreed upon on how to best care for patients. And it's a consensus opinion
of local experts as to what is the best treatment algorithm for patients.
(Tr.

v.. II p. 2411.6-12)

. 2. Two days later, on redirect, the Petitioner's expert witness defined the standard
of care as follows:
It's the type and level of care that a reasonably competent, skilled, health care
physician with a similar background in a community, a similar community would
provide under those circumstances.
(Tr. v. IV p. 7 11. 5-8)
3. The Petitioner's expert reviewed Patients A to I's cases several times over the last seven
years. (Tr. v. III p. 911. 16-19)
4. He reviewed medical literature during that period and factored it into his opinion as to the
standard of care. (Tr. V;III p. 10 II. 4-13 p. 1411.1-4)
5. The Petitioner's expert had all the materials he needed to reach his opinions in 2012
when he issued his first report. (Tr. v. III p. 111. 21- p.121.1)
6. The Petitioner's expert changed some of his opinions several times and as recently as two

3

30a

Bd. of Reg, in Med. v. Eddison Ramsaran, MD.,

RM-15-672

weeks before the hearing: (Tr. v. III p. 1411.4-11)
7. In 2013, the Petitioner's expert opined that NUS (intravascular ultrasound) was not
indicated in Patient A's case, but in 2016 he opined that it was indicated. (Tr. v. III p. 43 II. 9-17)
8. He testified at hearing on cross-examination that it was in the "grey area"(Tr. v. III p.
43 I. 9-p. 44 I. 7)
9. In 2013, the Petitioner's expert opined that a high risk PCI (percutaneous coronary
intervention) could be entertained in Patient A's case, but he testified at the hearing it was below
the standard of care to perform it. When confronted with his 2013 opinion, he testified: "I would
not have done it. I would not have done it. It comd be entertained. I would not have done it."
(Tr. v. III p. 53 11. 9-16)

I 0. The Petitioner's expert's opinion concerning the use of a coronary stent in.the common
femoral artery in Patient B's case has changed. (Tr. v. III p. 5711. 13-20 and p. 58 11. 13- p. 60 I.
12)
11. The Petitioner's expert witness opined in his reports dated October 15, 2012,
December 16, 2013 and September 19, 2016 that the PCI procedure performed on Patient I "was
indicated." (Exs. 2 and 2A)
12. In his report dated September 10, 2018, he opined that "The PCI procedure was not

clearly indicated." (Ex. 2C)
13. On direct examination, the Petitioner's expert witness testified that intervention
was not necessary for Patient L (Tr. v. II p. 17511. 6-14)
14. On cross-examination, the Petitioner's expert witness testified that the changes to
his reports were not substantial and then admitted that changing his opinion as to whether a
procedure was indicated or not indicated was substantial. (Tr. v. III p. 20 II. 1-8)
4

31a

Ed. ofReg. in Med v. Eddison Ramsaran, MD.,
15.

RM-15-672

The Respondent, Eddison Ramsaran, is an interventional cardiologist at UMass

Medical Center. He became Board certified in 1995 and has been practicing that specialty since
then. (Tr. v. Ip. 161. 10 - p. 171. 16)
16,

He performs interventional cardiology procedures 1 day a week and sees patients,

conducts hospital rounds and visits an outpatient clinic the rest of the week. (Tr. p. v. Ip. 18 IL 919)
17.

He performs 3-4 intervenlional cardiology procedures a day, Presently he is

doing non-interventional cardiology at UMass Medical Center (Tr. v. Ip. 18 I. 23 and p. 16 I. 10)
18.

He performs coronary interventions including fixing coronary arteries, peripheral

vascular interventions and fixes heart valves. (Tr. v. Ip. 161. J 3 and 19)
19.

From 2000-2011, he was the director of the cardiac catheterization lab at St.

Vincent's Hospital. (Tr. v. Ip. 2111.6-16)
20.

He was responsible for the functioning, daily running, maintenance, and

continued accreditation of the cardiac cath lab. (Tr. v. I p. 2111. 18-22)
21.

The Respondent was responsible for the quality of work of the other cardiologists

and interventional cardiologists who worked in the lab. (Tr. v. I p. 22 I. 20- p. 23 I. 15)
22.

The Respondent was responsible for data collection by the lab for several

regulatory agencies, including the American College of Cardiology's National Cardiovascular
Data Registry and the Massachusetts Data Collection Agency, MASS-DAC. (Tr. v. Ip. 2711. 513)

. 23.

The cath lab had a data collection manager who was responsible for collecting

data concerning complications. (Tr. v. I p. 28 I. 19 - p. 29 1.1)
24.

Cases that resulted in complications would be reviewed by a conference that the
5

32a

Bd. ofReg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

Respondent ran. He reported to the chief of cardiology. (Tr. v. Ip. 29 11. 1- 24)
25.

Reports back from regulatory agencies were generally excellent. However, one

particular year it was reported that there was a high mortality rate

h?. the cath lab. (Tr. v. Ip. 21

1.

15)
26.

The hospital was informed by MASS-DAC that the cardiac cath lab had a high

mortality rate. (Tr. v. Ip. 3111. 11-12)
27.

The hospital took several steps following that report. (Tr. v. I p. 33 I. 8)

28.

Stenosis is a blockage of an artery and a PCI is performed to open up the

blockage. (Tr. v. Ip. 2511.4-18)
Patient A
29.

Patient A was an 83-year-old with a history of cardiac issues. She had a history of

renal insufficiency, chronic anemia, coronary artery disease with stents and lung cancer. She had
been hospitalized several times, (Tr. v. Ip. 55 11. 10-23)
30.

She was referred from Marlborough Hospital where she presented with substernal

chest discomfort and left arm discomfort. She had taken three sublingual nitroglycerin tablets
and aspirin before going to the hospital. At Marlborough Hospital, she was given two units of
packed red blood cells. (Tr. v. Ip. 56 11. 10-23)
31.

The physicians at Marlborough Hospital believed that Patient A's chest pain was

due to coronary artery blockages. She had unstable angina, which is pain caused by blockages of
the arteries. (Tr. v. Ip. 5 711. 8-22)
32.

Blood tests revealed that patient A had anemia and that is why she had the 2 units

of packed red blood cells. (Tr. v. Ip. 58 1. 3)
33.

A cardiologist at Marlborough Hospital transferred Patient A to another

6

33a

Ed. ofReg. in Med v. Eddison Ramsaran, A1.D.,

RM-15-672

,

cardiologist at St. Vincent's Hospital. It was clear that patient A's chest discomfort was cardiac
in nature. (Tr. v. Ip. 5911. 10-24)
34.

When she arrived at St. Vincent's Hospital, she had a diagnostic angiogram by an

invasive cardiologist, Dr. ~hah. (Tr. v. Ip. 5911. 11-16)

3 5.

It was determined that Patient A needed further treatment. It was determined that

she was not a good candidate for cardiac surgery and a cardiac surgeon, Dr. Robert Bojar, turned
her down for surgery. (Tr. v. Ip. 60 I. 12 and p. 6111. 7-23).
36.

The Respondent discussed Patient A with the cardiologists, who had seen her, and

he decided to perform a procedure on her. (Tr. v. Ip. 55 IL 15-23)

3 7.

Patient A was not complaining of chest pain at the time he performed the

procedure. Her blood pressure was high. (Tr. v. Ip. 63 11. 10-23)

38.

The Respondent performed a rotational atherectomy and stent on Patient A. (Tr.

v. Ip. 7211. 9-12)
3 9.

Rotational atherectomy is performed using a diamond tipped burr in the artery to

ablate the calcified portion of the vessel so a stent can be placed and expanded. (Tr. v. I p. 73 IL
21-23)
40.

Patient A's left main artery ,vas heavily calcified. The Respondent 1ried to drill

out the inside of the artery and place a stent. A balloon was used to icy to expand the stent. (Tr. v.
Ip. 6411. 9-17)
41.

The procedure the Respondent performed was indicated. During the procedure,

Patient A suffered a coronary perforation. (Tr. v. I p. 63 11. 17-24)
42.

The perforation was a complete tear in all three linings of the vessel wall. (Tr. v. I

p. 7911.13 -23)
7

34a

Bd. of Reg. in A1ed. v. Eddison Ramsaran, MD.,
43.

RM-15-672

The perforation was not caused by the size of the burr, It was caused by pressures

exerted by the post dilation balloon on the third attempt. The balloon was used, because the stent
was under-expanded and the balloon pushes against the stent to push it open. It is very•
dangerous to leave an under-expanded stent, because of the risk of the stent closing down. The
first balloon was taken to 18 atmospheres, but the stent did not expand. 18 atmospheres was tried
a second time without success. The balloon was then taken to 20 atmospheres and the perforation
occurred. (Tr. v. I p. 77 II. 3-11, p. 76 II. 8-9 and p. 78 I. 1- p. 79 I. 20)
44.

After the perforation, attempts were made to save Patient A, but she passed away.

(Tr. v. Ip. 81 I. 9 and p. 83 L 14)
45.

After the perforation, the Respondent attempted to place a covered stent to

prevent leak.age. (Tr. v. Ip. 85 IL 11-15)
46.

The Respondent relied on the 2005 and 2007American College of Cardiology

guidelines when deciding to fix the vessel. (Tr. v. Ip. 91

n. 9-24)

Patient B
47.

The Respondent began treating Patient B when she was 56 years old. Patient B

complained of pain while walking. (Tr. v. Ip. 93 II. 16-23)
48.

The Respondent performed peripheral vascular studies. He used blood pressure

cuffs and ultrasound to look at Patient B's lower extremities to assess for blockages. (Tr. v. Ip.
9511.16-19)
49.

Patient B had disease in the iliac and femoral arterial system; these are vessels in

the legs and abdomen. (Tr. v. Ip. 95 I. 16-p. 96 I. 1)
50.

The Respondent perfo~ed a peripheral angiogram to take pictures of the arteries

in Patient B's legs. (Tr. v. Ip.9711. 9-16)
8

35a

Bd ofReg. in Med. v. Eddison Ramsaran, MD.,
51.

RM-15-672

The Respondent determined that Patient B's anatomy was amenable to a stent.

(Tr. v. Ip. 93 11. 16-23)
52.

The target was the proximal aortic iliac region. Everything else below that in the

legs was okay. (Tr. v. Ip. 10011. 15-19)
53.

The diagnostic angiogram of the entire leg did not show any disease. (Tr. v. Ip.

101 11. 8-13) ·
54.

The Respondent placed a self-expanding stent in the proximal left common iliac

artery. (Tr. v. I p. 102 1. 12)
55.

Balloon expanding stents and self-expanding stents are both indicated for use in

the iliac arteries. (Tr. v. Ip. 105 11. 15-16)
56.

The Respondent used a perclose closure device to close the artery. It allows the

patient early ambulation and discharge. (Tr. v. Ip. 107 I. 10-23)
57.

On December 23, 2010, Patient B complained to her cardiologist of severe leg

pain. (Tr. v. Ip. 10911. 10-12)
58.

A vascular study performed at that time showed a significant diminished flow of

blood to her left lower extremity at the site of the Perclose. (Tr. v. Ip. 10911. 18-24)
59.

A device failure within 2 weeks is a known complication, but not common. (Tr. v.

Ip. 11011.18-24)
60.

High puncture is when access is obtained in an artery at higher than the ideal

location. (Tr. v. Ip.1101. 24-p. 111 1.1)
61.

A high puncture does not affect the procedure itself. (Tr. v. Ip. 11211. 6-11)

62.

Patient B's issue was the Perclose not the high stick. (Tr. v. Ip. 113 11. 12-14)

63.

The angiogram showed the common femoral artery was occluded. The Perclose
9

36a

Ed. ofReg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

acutely closed down the artery. It is a rare problem. (Tr. v. Ip. 1141. 3 - p. 115 1. 1)
64.

Patient B was suitable for surgery and percutaneous procedure. (Tr. v. Ip. 11711.

65.

It was standard of care to fix the problem percutaneously, (Tr. v. Ip. 118 11. 6-9)

66.

After the procedure, Patient B's pain went away and her pulse returned to normal.

15-21)

Repeating unnecessary fluoroscopy and contrast would not have been consistent with the
standard of care. (Tr. v. Ip. 120 l.9- p. 1211. 1)
67.

Patient B was given Integrilin, for maximum antithrombotic, antiplatelet therapy.

It can prevent the developmentofclotsinthestent. (Tr. v.I p.12811. 13-19 andp. 131 I. 9-12)
68.

On April 15, 2011, Patient B had a third procedure, because she was having leg

pam. She had another blockage in the stent. (Tr. v. Ip. 133 1. 9) .
69.

The Respondent placed a drug-eluting stent into the common femoral artery and a

balloon expandable stent at the origin of the left common iliac artery. (Tr. v. Ip. 1341.4-6)
70.

The left common femoral artery had re-stenosed due to intimal hyperplasia,

aggressive development of fibrous tissue at the site of the prior placed stent. (Tr. v. Ip. 134 11.
11-14)
71.

Patient B has done extremely well since the surgery. (Tr. v. Ip. 134)
PatientC

72.

Patient C was a 76 year old male with a history of coronary artery disease and had

undergone multiple stent procedures to his coronary arteries. (Tr. v. Ip. 135 11. 16-22)
73.

Patient C was referred to the Respondent by his cardiologist, because of recurring

substemal chest discomfort on maximum medical therapy. (Tr. v. Ip. 136 II. 18-19)
74.

Patient Chad the option of cardiac bypass surgery or coronary intervention. (Tr.
10

37a

Bd. of Reg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

v. Ip. 13811. 13-15)
75.

· Patient C is a retired surgeon that the Respondent has known for 10 years. Patient

Chas known his cardiologist for 10 years. Patient C told the Respondent and his cardiologist that
he did not want a surgical procedure. This was documented in notes, the patient log, the nursing
log and reports (Tr. v. I p. 143 I. 23- p. 1441. 1)
76.

Patient C was not referred to cardiac surgery, because he declined to consider a

cardiac-thoracic option. (Tr. v. Ip. 13711. 23-24, Ex. 1 pp. 2207, 2210)
77.

On September 7, 2011, Patient C signed a Consent for Medical Surgical and

Diagnostic Procedures. (Ex. 1 p. 2201)
78.

On September 9, 2011, the Respondent performed a diagnostic procedure which

showed that the left anterior descending coronary artery had in-stent stenosis of a prior stent. Tr.
V.

Ip. 13911. 5-10)
79.

Patient C's first diagonal branch was already jailed from prior interventions.

Meaning that the stent was placed across the vessel from prior procedures. (Tr. v. Ip. 146 1.23 p. 14711. 2-4)
80.

The Respondent decided to intervene to open up the proximal vessel and the

closed diagonal branch. (Tr. v. Ip. 13911. 19 - 22)
81. ·

He stopped the procedure, discussed the options with Patient C and his

cardiologist, and documented that in Patient C's chart. (Tr. v. Ip. 14411. 4-15, Ex. 1 p. 2210)
Patient D
82.

Dr. Sharma, a cardiologist, performed an echocardiogram on Patient D and

referred Patient D to the Respondent. The echocardiogram showed an atrial septa! defect, an
ASD. {Tr. v. Ip. 154 1. 17 and p. 1491.7-1. 14)

11

38a

Bel. ofReg. in Med. v. Eddison Ramsaran, MD.,
83.

RM-15-672

Patient D's primary care physician wrote "After discussion with Doctor Ramsaran

she is not really a candidate for PFO closure." The Respondent believes that the primary care
physician mistook PFO for ASD. (Tr. v. Ip. 153 II. 12-23)
84.

"ASD" stands for atrial septal defect. It is a congenital defect, a hole in the

septum of the heart between the right and left sides. (Tr. v. I p. 2411. 1- 15)
85.

"PFO" refers to patent foramen ovale, which is a defect in foramen ovale. It is a

hole in the heart that allows blood to flow to the fetus in utero. It closes after birth in 70% of the
population and causes no problems. (Tr. v. Ip. 24 II. 15-24)
86.

An ASD is a congenital defect between the upper chambers of the heart. Patient

D had a history of aortic valve replacement, The ASD was not diagnosed at that time. (Tr. v.· Ip.
150 II. 5-6)
87.

ASD's are diagnosed mostly later in life as there is more stiffness of the ventricles

which sets up shunting, or abnormal blood flow from one chamber of the heart to the other. (fr.
v. Ip.151 Il. 7p.152l.5)
88.

There was evidence of shunting in Patient D's medical records. (Tr. v. I p. 1561.

15 - p. 157 I. 7)
89.

The Respondent closed an atrial septa! defect through a PFO diagnosed by Dr.

Mark Kranis and confirmed by Dr. Shah in1raoperatively while the Respondent was performing

the procedure. The Respondent closed the PFO. (Tr. v. Ip. 154 L 23 -p. 1561. 3, Ex. l p. 3006)
90.

The PFO that Patient D had was not acting as a blow hole to relieve pressure in

her heart. (Tr. v. Ip. 161 L 24)

12

39a

Bd of Reg. in Med v. Eddison Ramsaran, MD.,

RM-15-672

Patient E
The Respondent 'l:eated Patient E, who was an 88 year old male. He had a history

91.

of hypertension, abdominal aortic aneurysm, coronary artery bypass grafting, and chronic renal
insufficiency. (Tr. v. Ip. 163 11.12-18)
The Respondent had 1ried to dilate Patient E's left anterior descending coronary

92.

artery on September 7, 2006. (Tr. v. Ip. 163 11. 21-24)
93.

That procedure was not successful, because the vessel was too difficult to get a

balloon past the legion. The calcification and a bend in the artery made it too difficult. (Tr. v. I
p. 16411. 9-15)
94.

Patient E returned to the Respondent, because of severe substemal pain while on

maximum medical therapy. (Tr. v. Ip. 164 11. 18-19)
95.

The Respondent decided not to perform an atherectomy on Patient E, because of

the conditions he encountered during his earlier effort. (Tr. v. Ip. 168 I. 16 - 1691. 8)
96.

The Respondent performed a balloon angioplasty. The procedure made a

difference both clinically and an angiographic improvement. The blockage went from 90% to
40%. (Tr. v. I p. 167 l. 4 and p. 169 II. 8-24)
97.

While the medical record documents the correct reduction of the lesion from 90%

to 40% three times, on one occasion it incorrectly states 90% to 0% due to an operator error. (Tr.
V.

Ip. 17011. 5-9)
98.

During the procedure, 320 cc's of dye were documented, which is in the range for

a complicated procedure, such as that performed upon Patient E. The procedure was difficult,
because of a bend in the vessel, the calcification and the degree of stenosis. (Tr. v. I p. 170 II. 1022)
13

40a

Bd ofReg. in Med v. Eddison Ramsaran, MD.,

RM-15-672

PatientF
99.

The Respondent treated Patient F, when Patient F was 50 years old. (Tr. v. Ip.

171 11. 2-6)
100.

Patient F had developed exertional substernal chest discomfort and shortness of

breath. He had a history of type 2 diabetes mellitus, smoking, _peripheral vascular disease and an
abnormal stress test. (Tr. v. Ip. 171 11. 8-12)
101.

Patient F was referred to the Respondent by Dr. Shah. (Tr. v. I p. 1711. 23 - 172

102.

Based upon diagnostic testing, Patient F had a significant blockage. (Tr. v. Ip.

!. 1)

I 72 I. 19- p. I 73 13)

I 03.

The-Respondent treated Patient F with balloons and stents. (Tr. v. Ip. 173 I. 22)

104.

There was very mild plaque shifting during the procedure. Plaque shifting is when

the balloon does not pulverize the plaque but causes it to shift to another location. It can cause a
heart attack. (Tr. v. Ip. 174 ll. 10-23)
105.

The Respondent obtained informed consent from Patient F. (Tr. v. Ip. 175 1. 9)

106. · Patient F's procedure was successful. (Tr. v. Ip. 176 11. 8-9)
107.

The plaque that shifted did not create a blockage. (Tr. v. Ip. I 77 1.23 - p. 178 I. 1)

I 08.

After examining the flow and seeing it was normal and noting that Patient F was

asymptomatic, the Respondent decided it was best to leave the vessel alone and ended the
procedure, (Tr. v. Ip. 180 II. 9-p.1811. 14).
109.

Two stents were deployed. A third was not deployed and was removed. (Tr. v. I

p. 183 II. 7 - 23)

14

41a

Bd. ofReg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

Patient G

110.

The Respondent began treating Patient G on March 10, 2011. Patient G was a 77

year old female. She had a history of coronary artery bypass grafting, peripheral vascular
disease, diabetes and moderate aortic stenosis. (Tr. v. Ip. 185 II. 13-22)

111.

Patient G had a cardiologist. She had a nuclear imaging stress test, which

demons1rated a 90% lesion in a vein graft to the ramus intermedius artery. She had a 38
millimeter gradient. A gradient across a valve is a blockage of the valve. (Tr. v. Ip. 18611. 10-

21 and p. 187 11. 12-20)
112.

Patient G was referred to cardiothoracic surgeon, who declined to treat her, and

she was then referred to interventional cardiology. (Tr. v. Ip. 1871. 23 -p. 188 I. 1)

113.

The Respondent treated her by performing a percutaneous intervention and vein

graft. (Tr. v. Ip. 18811.10-11)

114.

Vein grafts are very friable so distal embolization is a concern. (Tr. v._I p. 1881.

14- p. 1891. 15)
115.

In 2018, the main technique to prevent distal embolization is using a filter wire to

catch debris. (Tr. v. Ip. 18911.18-24)
116.

The Respondent's documentation of Patient G's procedure is consistent. He

never went back to redo his documentation. (Tr. v. I p. 191 11. 6-15)
117.

When referring to "complications," he is documenting complications inherent to

the specific region he is working on. (Tr. v. Ip. 191 I. 21-24)

118.

The data adjudicators only consider distal embolization if there is a significant

event, if the distal embolization impairs blood flow. It is not inconsistent documentation to report
no complications in one place and distal embolization in another. (Tr. v. I p. I 92 11. 16- p: 193 1.
15

42a

Bd of Reg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

23)
119.

The Respondent was not able to catch or clean out debris from Patient G. (Tr. v. I

p. 193 11. 5-9)
Patient H
120.

The Respondent treated Patient H who was a 64 year old female, (Tr. v. Ip. 195

ILI0-12)
121.

Patient H complained of chest pain and had a persantine stress test. The test

revealed a small area ofischemia in the anterior wall of the left ventricle. The Respondent
performed a cardiac catherization on Patient H, which revealed lesions in the left coronary artery
and lesions in a circumflex coronary artery. (Tr. v. Ip. 195 IL 11-24 and p. 196 11. 11-14)
122.

The Respondent performed a stent placement to the left anterior descending artery

and placed stents in the left circumflex coronary artery. This was an appropriate procedure (Tr. v.
I p. 196 I. 15- p. 196 L 2)
123..

):'atient H was brought back for a PCI for her circumflex. The Respondent staged

the procedure, because Patient H was completing cardiac rehab and he did not want to interrupt
that process. In addition, Patient H wanted to wait. (Tr. v. I p. 197 11.10-12)
124.

During this procedure, the Respondent placed three drug-eluting stents using

rotational atherectomy. He used a 1.5 millimeter burr. (Tr. v. Ip. 19711. 13-23)
125.

He chose that size burr because of the size ofthe vessel. (Tr. v. Ip. 1981. 1)

126.

The burr caused a small type 2 perforation. There is a high incidence of

perforation in rotational atherectomy, but it is not common. (Tr. v. I p.19811. 19-23)
127.

The Respondent documented the perforation. (Tr. v. Ip. 19911. 1-3)

128.

The procedure was indicated for Patient H. (Tr. v. Ip.20011. 19-21)
16

43a

Bd ofReg. in _lv.[ed v. Eddison Ramsaran, MD.,

RM-15-672

Patient I
129.

The Respondent treated Patient I, a 67 year old female who presented to the

emergency room with substernal chest discomfort and shortness of breath. She had a history of
mitral regurgitation, a leaky valve. She did not have a myocardial infarction. (Tr. v. Ip. 2021.
12- p. 2031. 7)
13 0.

She had an ASD repair and a repair of her tricuspid valve with a placement of an

annuloplasty ring in 2007. An annuloplasty ring is placed around the tricuspid valve to bring
valve leaflets together and prevent leakage. (Tr. v. Ip. 203 11. 5-24)
131.

She presented with chest discomfort and had abnormal nuclear imaging stress test.

She had blockages. (Tr. v. Ip. 20611. 21-24)
132.

The Respondent performed a stent placement to the obtuse marginal branch of the

left circumflex coronary artery, followed by a stent placement to the left anterior descending
artery. (Tr. v. Ip. 20611. 13-16)
133.

Patient I was given Plavix to help

the stents heal, but she vomited immediately

after the procedure. This meant she was not absorbing the Plavix. (Tr. v. I p. 207 11. 5-22)

134.

Patient I vomited a second dose of Plavix and began having chest pain. (Tr. v. Ip.

20911. 16-19)
135.

The Respondent repeated an EKG and had Patient I returned to the cath lab,

where he performed a coronary angiogram, which revealed that stent was blocked. Such a
blockage was uncommon in 2011. (Tr. v. Ip. 2111. 2)
136.

The stent became blocked because she did not have anticoagulation on board,

having vomited the Plavix. (Tr. v. Ip. 211 11. 4-5)
17

44a

Bd of Reg. in Med. v. Eddison Ramsaran, MD.,
13 7.

RM-15-672

The stent closed exactly 1 hour after Angiomax was shut off and, while there was

other medication available, the Respondent did not know she would vomit up the Plavix when he
chose it. (Tr. v. Ip. 211 11. 8-22)
138.

The Respondent performed a balloon angioplasty and a thrombectomy. During a

thrombectomy, a suction device is used to manually extract a clot from an artery. (Tr. v. Ip. 212

11. 9- I 6)
139.

Patient I had a cardiac arrest. The Respondent shocked her and got her back very

quickly. That is not uncommon. (Tr. v. Ip. 21411. 12-15) ·
140.

The Respondent documented Patients I's complications. (Tr. v. Ip.22011. 23)

141.

The procedure was appropriate for Patient I. The stent was appropriately sized

and it was appropriately placed. (Tr. v. Ip. 21711. 23-p. 2181. 10)

--

Ill

Analysis
a) Failure to maintain a medical record

The first allegation put forward for clarification is that the Respondent violated 243 CMR.
2.07(13)(a) by "failing to maintain a medical record for each patient which is adequate to enable
t_he licensee to provide proper diagnosis and treatment ... " In order to prove that the
Respondent's medical records were not adequate to enable the licensee "to provide proper
diagnosis and treatment," the Petitioner must submit reliable expert testimony to support that
finding and it did not do so.
In addition, setting aside the failure of the Petitioner's expert testimony, I was not persuaded
that the Respondent failed to maintain an adequate medical record for any of the patients listed in
the Statement of Allegations·. While the Respondent did not have the burden of proof, I found his
testimony concerning the medical records of his patients to be clear and persuasive. For
18

45a

Bd. ofReg. in Med.. v. Eddison Ramsaran, MD.,

RM-15-672

. example, he testified credibly explaining that he adequately documented, diagnosed, and
performed an ASD closure through a PFO and closed the PFO on Patient C. (Finding 89). To the
extent there was confusion over the existence of an ASD or PFO, it was generated during the
testimony of the Petitioner's expert referring to Dr. Shah's records and I gave his.testimony no
weight. In addition, while there was one error in Patient E's medical record because it
incorrectly referred to the reduction of Patient E's blockage to 0%, there were three accurate
references to the correct figure. (Finding 97) I do not find that one mistake in a medical record
constitutes an inadequate medical record for the proper diagnosis and treatment of a patient,
especially when that finding was not supported by expert medical testimony. Likewise, the
Respondent's explanation of why he did not consider Patient G's distal embolization a
"complication" for reporting purposes made sense. (Findings 117 and I 18) Without credible
expert medical testimony, I will not find that this was a violation of 243 CMR 2.07(13)(a).
My recommended decision did not separately address the Petitioner's allegations that the
Respondent engaged in misconduct in the practice of medicine or in conduct which undermines
public confidence in the integrity of the medical profession, but I did recommend that the entire
statement of allegations should be dismissed, because of the failure of the Petitioner's expert
testimony. I issued the Recommended Decision based upon the way the Board presented the
evidence and responded to the motion to dismiss.
I offer the following by way of further explanation.
b) Committing misconduct in the practice of medicine
243 CMR l .03(5)(a)l 8 provides that the Board may discipline a physician for committing
misconduct in the practice of medicine. While misconduct in the practice of medicine may be an
independent and sufficient ground to warrant discipline, the Petitioner in this case did not offer
19

46a

Bd. of Reg. in .lvfed v. Eddison Ramsaran, MD.,

RM-15-672

any evidence of alleged "misconduct" except for conduct in the way the Respondent practiced
medicine. See Weinberg v. Board ofRegistration in Medicine, 443 Mass. 679, 687, 824 N.E.2d
38, 44 (2005) (discussing independent ground for discipline). The Petitioner summarized its
evidence as follows:
The Respondent's act of performing procedures on a patient which were not
medically necessary constitutes misconduct in the practice ofmedicine.
Petitioner's Opposition to the Respondent's Motion to Dismiss All Remaining Allegations dated
February 28, 2019 p. 14 (emphasis added). The Petitioner failed to convince me that the
Respondent performed procedures which were not medically necessary. The Petitioner's expert
testimony was not credible and I found the Respondent's testimony concerning his treatment of
'

the patients identified in the statement of allegations to be credible.
c) Engaging in conduct that undermines the public confidence in the integrity of the
medical profession
To the extent the Petitioner argues that the Respondent undermined the public's confidence
in the medical profession by performing unnecessary medical procedures or failing to do
medically necessary procedures it had to prove those allegations and it failed to do so, because of
the failure of its expert testimony.
Disciplining physicians for lack of good moral character, and for conduct that
undermines public confidence in the integrity of the profession, is reasonably
related to promotion of the public health, welfare, and safety. A physician's bad
moral character may reasonably call into question his ability to practice medicine.

Raymond v. Board of Registration in Medicine, 387 Mass. 708, 713, 443 N.E.2d 391, 395
(1982), On page 10 of the Petitioner's Opposition to the Respondent's Motion to Dismiss All
Remaining Allegations dated February 28, 2019, the Petitioner's Attorney wrote:
The Respondent engaged in conduct that undermines the public confidence in the
integrity of the medical profession by failing to perform medically indicated

21

47a

Bd. ofReg. in Med. v. Eddison Ramsaran, MD.,

RM-15-672

procedures for patients or b'y performing unnecessary medical procedures for

patients.
( emphasis added).
Considering the presentation of the evidence, that statement made sense, as no
evidence was offered during the hearing that would support a finding that the Respondent
engaged in conduct that undermines the public confidence in the integrity of the medical
profession that did not involve failing to provide medically necessary procedures or
performing unnecessary procedures. The need for expert testimony on this allegation is
confirmed by the remaining statements pertaining to this topic in the Petitioner's
Opposition to the Respondent's Motion to Dismiss All Remaining Allegations dated
February 28, 2019 pages 10-14. In addition, while he did not have the burden of proof, I
found the Respondent's testimony concerning the care of his patients to be credible.
Conclusion After Remand

I have considered all the allegations contained in the statement of allegations and, for the
reasons set out in the Recommended Decision and above, I recommend that the Statement of
Allegations be DISMISSED.

DIVISION OF ADMINISTRATIVE LAW APPEALS

Chief Administrative Magistrate
Dated:

APRS O 20f9

21

48a

· COMMONWEALTH OF MASSAC!IUS!:.7TS

MIDDLESEX, SS

BOARD OF REGJSTRA TION
IN MEDICINE
Adjudicatory Case No. 2015-040

)

ln the Matier of

)

Eddison Ra..-nsanm, M.D.

)
)

)

_______

)

ORDER

11:Lis matter came before the Board for consideration of the Chief Magistrate's
(Magistrate'srOctober 22, 211&.Recomm<:ndcd Dccision·on Motion to Dismiss (Recommended

Dc-.oision), the Magislmtc·s April 30, 20i9 Response to Order of Remand, and the Parties'
pleadings.
Based on the i\fagistratc's determination.that the Board"s expert was not credible and that
he could hgive [the Board expert's] testimony no wcigl),."' the Magistrate conciuded \bat the
Board failed to meet its burden to prove each charge in• its ·statcrncnt of Allegations.

Tl1e Board adt1pts the Os:tober 22. 2018 Recommended Dei:ision, as amended .by the
April 30, 2119 Response to Order of Remand. The Board hereby dismissc:s the December 18,
2015 Statemsut of Alicgations'.
·

Date: May 30, 20 l 9

·candacc Lapidus Sioane. M.D.
Board..Chair

49a

APPENDIX H

T

243 CMR: BOARD OF REGISTRATION IN MEDICINE

DISCIPLINARY PROCEEDINGS FOR PHYSICIANS

243CMRI.00:
Section

1.01:
1.02:
1.03:
1.04:

Scope and Construction
General Provisions
Dispositions of Complaints and Statutory Reports
Adjudicatory Hearing

1.05: Final Decision and Order and Miscellaneous Provisions
1.01: Scope and Construction

(1) Procedure Governed. 243 CMR 1.00 governs the disposition of matters relating to the
practice of medicine by any person holding or having held a certificate ofregistration issued by
the Board of Registration in Medicine under M.G.L. c. 112, §§ 2 through 9B, and the conduct
ofadjudicatory hearings by the Board. 243 CMR 1.00 is based on the principle of fundamental
fairness to physicians and patients and shall be construed to secure a speedy and just disposition.
The Board may issue standing orders consistent with 243 CMR 1.00 and 801 CMR
1.00: Standard Aqjudicatory Rules ofPractice and Procedure.

(2) Definitions.

Adjudicatory Hearing: a formal administrative hearing conducted pursuant to M.G.L. c. 30A.
Board:

the Board of Registration in Medicine, including, but not limited to, its Data

Repository/Data Management Unit, Disciplinary Unit, Patient Care Assessment Unit, Legal Unit,
Licensing and Examining Unit, and its agents and employees.
Complaint: a communication filed with the Board which charges a licensee with misconduct.

A Statutory Report is not a Complaint; See 243 CMR 1.03(14).
Disciplinazy Action means an action adversely affecting a licensee which simultaneously meets

the descriptions in 243 CMR l.01(2)(a) through (c), and which is limited as described in
243 CMR l.01(2)(d) and (e).
(a)
disciplinary action means an action of an entity including, but not limited to, a
governmental authority, a health care facility, an employer, or a professional medical
association (international, national, or local).
(b) A disciplinary action is:
1. formal or informal, or
2. oral or written.
3. An oral reprimand is not a Disciplinary Action. However, the fact that conduct
resulted in an oral reprimand does not relieve any obligation to report under
M.G.L. c. 112, § SF.

(c)

A disciplinary action includes any of the following actions or their substantial

equivalents, whether voluntary or involuntary:
1. Revocation of a right or privilege.
2. Suspension of a right or privilege.
3. Censure.
4. Written reprimand or admonition.
5. Restriction of a right or privilege.
6. Non renewal of a right or privilege.

7. Fine.
8. Required performance of public service.
9. A course of education, training, counseling, or monitoring, only if such course arose
out of the filing of a complaint or the filing of any other formal charges reflecting upon
the licensee's competence to practice medicine.
10. Denial of a right or privilege.
11. Resignation.
12. Leave of absence.

13. Withdrawal of an application.
14. Termination or non renewal of a contract with a licensee.

50a

APPENDIX I

243 CMR: BOARD OF REGISTRATION IN MEDICINE
1.01: continued

(d) The actions described in 243 CMR l.01(2)(c)5., 6. and 10. through 14. are Disciplinary
Actions only if they relate, directly or indirectly to:
1. the licensee's competence to practice medicine, or
2. a complaint or allegation regarding any violation oflaw or regulation (including, but
not limited to, the regulations of the Board (243 CMR)) or bylaws of a health care
facility, medical staff, group practice, or professional medical association, whether or not
the complaint or allegation specifically cites violation of a specific law or regulation.
(e) If based upon a failure to complete medical records in a timely fashion or failure to
perform minor administrative functions, the action adversely affecting the licensee is not a
Disciplinary Action for the purposes of mandatory reporting to the Board, provided that the
adverse action does not relate directly or indirectly to:
1. the licensee's competence to practice medicine, or
2. a complaint or allegation regarding any violation of law or a Board regulation,
whether or not the complaint or allegation specifically cites violation of a specific law
or regulation.

Informal: not subject to strict procedural or evidentiary rules.
Licensee: a person holding or having held anyt:)1)e of license issued pursuant to M.G.L. c. 112,
§§ 2 through 9B.
!1fily: a respondent, associate prosecutor representing the disciplinary unit, or intervenor in an

adjudicatory proceeding pursuant to 80 I CMR 1.0 I (9).
Respondent: the licensee named in a Statement of Allegations.
Statement of Allegations: a paper served by the Board upon a licensee ordering the licensee to
appear before the Board for an adjudicatory proceeding and show cause why the licensee should
not be disciplined; a ustatementof Allegations" is an "Order to Show Cause11 within the meaning

of801 CMR 1.01(6)(d).
1.02: General Provisions
(1) Communications. All written correspondence should be addressed to and filed with the

Board of Registration in Medicine, 200 Harvard Mills Square, Suite 330, Wakefield, MA 01880.
(2) (a) Service. The Board shall provide notice of its actions in accordance with the Standard
Adjudicatory Rules, 801 CMR l.01(4)(b) and (5)(1), or otherwise with reasonable attempts
at in-hand service, unless the Respondent otherwise has actual notice of the Board's action.
Where 243 CMR 1.00 provides that the Board must notify parties, service may be made by
first class mail. A notice of appearance on behalf of a Respondent shall be deemed an

agreement to accept service of any document on behalf of the Respondent, including a Final
Decision and Order of the Board. When a Hearing Officer has jurisdiction over an
adjudicatory proceeding, proper service by the Respondent includes filing copies of all
papers and exhibits with:
1. the Board, care of its General Counsel;
2. the Hearing Officer assigned to the adjudicatory proceeding; and
3. the Associate Prosecutor assigned to the adjudicatory proceeding. All papers served
must be accompanied by a certificate of service.
(b) Notice to Board Members. A Respondent (or his or her representative) and other
persons shall not engage in ex parte communications with individual Board members
regarding a disciplinary proceeding. Communications to Board members regarding
disciplinary proceedings shall be in writing and directed to Board members as follows: Eight
copies to the Executive Director, one copy to the General Counsel, and one copy to the Chief
of the Disciplinary Unit.

51a

243 CMR: BOARD OF REGISTRA TJON IN MEDICINE

1.02: continued
(3) Date of Receipt. Communications are deemed received on the date of actual receipt by the
Board.
(4) Computation of Time. The Board shall compute time in accordance with 801 CMR
l.01(4)(c): Notice ofAgency Actions.

(5) Extension of Time. The Board in its discretion may extend any time limit prescribed or
allowed by 243 CMR 1.00.
(6) Identification and Signature; Paper Size. All papers filed with the Board in the course of
a disciplinary proceeding must contain the name, address, and telephone number of the party
making the filing and must be signed by either the party or an authorized representative. Paper
size shall be 8½ 11 by 11 11 •
(7) Decisions by the Board; Quorum. Unless 243 CMR 1.00 provides otherwise, a majority of
members present and voting at a Board meeting shall make all decisions and the Board shall
record its decisions in the minutes of its meetings. A quorum is a majority of the Board,
excluding vacancies.
(8) Availability of Board Records to the Public.
(a) The availability of the Board's records to the public is governed by the provisions of the
Public Records Law, M.G.L. c. 66, § 10, and M.G.L. c. 4, § 7, clause 26, as limited by the
confidentiality provisions ofM.G.L. c. 112, §§ 5 through 51 and 243 CMR. A file or some
portion of it is not a public record if the Board determines that disclosure may constitute an
unwarranted invasion of personal privacy, prejudice the effectiveness of law enforcement
efforts (if the records were necessarily compiled out of public view), violate any provision
of state or federal law, or if the records are otherwise legally exempt from disclosure.
(b) Before the Board issues a Statement of Allegations, dismisses a complaint, or takes
other final action, the Board's records concerning a disciplinary matter are confidential.
( c) The Board's records of disciplinary matters, as limited by 243 CMR 1.02(8)(a) and (b),
include the following:
1. Closed complaint files, which contain the complaint and other information in matters
which have been dismissed or otherwise resolved without adjudication, are public
records. The name or a complainant or patient and relevant medical records shall be
disclosed to the Respondent, but this information is otherwise confidential. The names
of reviewers and the contents of complaint reviews shall be confidential.
2. Disciplinary Unit files, which contain portions of complaint files (and related
confidential files) as well as papers related to adjudicatoryproceedings and attomeywork
product, are not public records and are confidential.
3. The Board's files, which contain each paper filed with the Board in connection with
an adjudicatory proceeding, are public records, unless otherwise impounded or placed
under seal by the Hearing Officer or the Board.
4. Peer review information and records shall remain confidential, to the extent allowable
under M.G.L. c. 111, § 204 and 243 CMR 3.04: Confidentiality of Records and
Infonnation, unless introduced into evidence in an adjudicatory proceeding.
5. Records of any Board unit1s review and investigation of statutory reports, consistent
with 243 CMR 1.03(14); are not public records aud are confidential.
6. Closed anonymous complaints, which are determined to be frivolous or lacking in
either legal merit or factual basis, consistent with 243 CMR l.03(3)(a); are not public
records and are confidential.
( d) Communications or complaints reviewed by the Complaint Committee prior to August
21, 1987 and not docketed for reasons other than the criteria set forth in 243 CMR l.03(3)(a),
shall be made available to the public as if they were closed complaint files under 243 CMR
1.02(8)(c) 1., whether or not such documents were previously considered to be confidential
Board records, unless release is otherwise limited by law or regulations.

52a

243 CMR: BOARD OF REGISTRATION IN MEDICINE

1.02: continued
(9) Public Nature of Board Meetings Under 243 CMR 1.00.
(a)
All meetings of the Board are open. to the public to the extent required by
M.G.L. c. 30A, § 20.
(b) As provided byM.G.L. c. 30A, § 20, a Board meeting held for the purpose of making
a decision required in an adjudicatory proceeding is not open to the public. Evidentiary

hearings before individual hearing officers are generally open to the public, but the Board
may carry out its functions under 243 CMR 1.00 in closed session if these :functions effect
an individual licensee or patient, the licensee or patient requests that the Board function in
closed session, and the Board or hearing officer determines that functioning in closed session
would be consistent with law and in the public interest.
(10) Conditional Privilege of Communications with the Board. All communications with the
Board charging misconduct, or reporting or providing information to the Board pursuant to
M.G.L. c. 112, §§ 5 through 51, or assisting the Board in anymannerin discharging its duties and
:functions, are privileged, and a person making a communication is privileged from liability based
upon the communication unless the person makes the communication in bad faith or for a
malicious reason. This limitation on liability is established by M.G.L. c. 112, §§ 5 and 5G(b).
(11) State or Federal Agencies, Boards or Institutions Designated to Receive Investigative
Records or Confidential Information. Pursuant to M.G.L. c. 112, § 5, the Board will review
written requests for investigative records or other confidential information from the following
agencies which are hereby designated to receive, upon Board approval, such information
consistent with the Farr Information Practices Act (FIP A), M.G.L. c. 66A:
(a) Massachusetts Department of the Attorney General;
(b) Offices of the Massachusetts District Attorneys;
(c) Massachusetts Municipal Police Departments;
(d) Massachusetts State Police;
(e) Federal Trade Commission;
(!) Office of the United States Attorney;
(g) U.S. Postal Inspector;
(h) U.S. Department of Justice, Drug Enforcement Administration, and Federal Bureau of
Investigation;
(i) Division of Professional Licensure;
G) All other state Medical Boards;
(k) The Federation of State Medical Boards of the United States, Inc.;
(1) Division of Insurance and the Insurance Rating Bureau;
(m) Massachusetts Health Data Consortium, Inc.;
(n) Department of Public Health;
(o) Massachusetts Department of Revenue;
(p) U.S. Internal Revenue Service;
( q) Office of Chief Medical Examiner;
(r) Capitol Police;
(s) U.S. Department of Health and Human Services, Office of the Inspector General;
(t) Insurance Fraud Bureau of Massachusetts.
(u) Department of Industrial Accidents.
(v) Division of Medical Assistance, Executive Office of Health and Human Services.
All recipients of confidential information designated by 243 CMR 1.00 shall preserve the
confidentiality of such data and make it available to the data subject, to the extent such access
is required by FIPA.
(12) Membership of Committees. The Board may establish committees ofits members to assist
in accomplishing its responsibilities. The Board may designate former members for assignment
to these committees; however, at least one member of each committee shall be a current member
of the Board.

53a

243 CMR: BOARD OF REGISTRATION IN MEDICINE
1.03: Disposition of Complaints and Statutory Reports

(1) Initiation. Any person, organization, or member of the Board may make a complaint to the
Board which charges a licensee with misconduct. A complaint may be filed in any form. The
Board, in its discretion, may investigate anonymous complaints.
(2)

Complaint Committee. The Board may establish a committee known as the Complaint

Committee to review complaints charging a licensee with misconduct. If the Committee or a
Board Investigator determines that a communication does not relate to any of the matters set
forth in 243 CMR 1.03(5), the committee or the investigator may refer the communication to the
proper authority or regulatory agency.

(3) (a) Preliminary Investigation. A Board Investigator shall conduct such preliminary
investigation, including a request for an answer from the licensee, as is necessary to allow
the Complaint Committee to determine whether a complaint is frivolous or lacking in either
merit or factual basis. If, after a preliminary investigation of an anonymous complaint, the
investigator determines that the anonymous complaint is frivolous or lacking in either merit
or factual basis, the anonymous complaint shall not be docketed, shall be filed in a general
correspondence file, and shall remain confidential.
(b) Subsequent Inquiry, Investigation. After receipt and review of a complaint, if the
Complaint Committee determines that the complaint is frivolous or lacking in either legal
merit or factual basis, it may close the complaint. The Committee shall notify the person
who made the communication of its determination and the reasons for it. As to other
complaints, the Committee shall conduct, or cause to be conducted,, any reasonable inquiry
or investigation it deems necessary to determine the truth and validity of the allegations set
forth in the complaint.

(4) Conference. To facilitate disposition, the Board or the Complaint Committee may request
any person to attend a conference at any time prior to the commencement of an adjudicatory
proceeding. The Board or Committee shall give timely notice of the conference, and this notice
must include either a reference to the complaint or a statement of the nature of the issues to be
discussed.
(5) Grounds for Complaint.

(a) Specific Grounds for Complaints Against Physicians. A complaint against a physician
must allege that a licensee is practicing medicine in violation oflaw, regulations, or good and
accepted medical practice and may be founded on any of the following:
1. Fraudulent procurement of his or her certificate of registration or its renewal;
2. Commitment of an offense against any provision of the laws of the Commonwealth
relating to the practice of medicine, or any rule or regulation adopted thereunder;
3. Conduct which places into question the physician1s competence to practice medicine,
including but not limited to gross misconduct in the practice of medicine, or practicing
medicine fraudulently, or beyond its authorized scope, or with gross incompetence, or

with gross negligence on a particular occasion or negligence on repeated occasions;
4. Practicing medicine while the ability to practice is impaired by alcohol, drugs.
physical disability or mental instability;
5.

Being habitually drunk or being or having been addicted to, dependent on, or a

habitual user of narcotics, barbiturates, amphetamines, hallucinogens, or other drugs
having similar effects;
6. Knowingly permitting, aiding or abetting an unlicensed person to perform activities
requiring a license.
7. Conviction of any crime;
8. Continuing to practice while his or her registration is lapsed, suspended, or revoked;
9. Being insane;
10. Practicing medicine deceitfu11y, or engaging in conduct which has the capacity to
deceive or defraud.
11. Violation of any rule or regulation of the Board;

54a

243 CMR: BOARD OF REGISTRATION IN MEDICINE

1.03: continued
12. Having been disciplined in another jurisdiction in any way by the proper licensing
authority for reasons substantially the same as those set forth in M.G.L. c. 112, § 5 or
243 CMR 1.03(5);
13. Violation of 243 CMR 2.07(15): Medicare Payments;
14. Cheating on or attempting to compromise the integrity of any medical licensing

examination;
15. Failure to report to the Board, within the time period provided by law or regulation,
any disciplinary action taken against the licensee by another licensing jurisdiction
(United States or foreign), by any health care institution, by any professional or medical
society or association, by any governmental agency, by any law enforcement agency, or
by any court for acts or conduct substantially the same as acts or conduct which would
constitute grounds for complaint as defined in 243 CMR 1.03(5);
16. Failure to respond to a subpoena or to furnish the Board, its investigators or
representatives, documents, information or testimony to which the Board is legally
entitled;
17. Malpractice within the meaning ofM.G.L. c. 112, § 61;
18. Misconduct in the practice of medicine.
(b) Other Grounds for Complaints Against Physicians. Nothing in 243 CMR 1.00 shall
limit the Board's adoption of policies and grounds for discipline through adjudication as well
as through rule-making.
(6) Docket. The Board shall assign a docket number to all complaints and shall mark the
complaint with this number and the date filed. All subsequent papers relating to the particular
complaint shall be marked with the same docket number and shall be placed in a file (the docket)
with all other papers bearing the same number.
(7) Order for Answering and Answer. The Committee may order that the licensee complained
of answer the complaint within ten days. The Committee shall attach a copy of the complaint
to the order for answering or shall describe the acts alleged in the complaint. A licensee shall
respond to an order for answering either personally or through his or her attorney, in compliance
with 243 CMR 1.02(6). An answer must address the substantive allegations set forth in the
complaint or order.
(8) Dismissal by Complaint Committee. Upon receipt of a licensee's answer or at any point
during the course ofinvestigation or inquiry into a complaint, the Committee may determine that
there is not and will not be sufficient evidence to warrant further proceedings or that the
complaint fails to allege misconduct for which a licensee may be sanctioned by the Board. In
such event, the Committee shall close the complaint. The Committee shall retain a file of all
complaints.
(9) Board Action Required. If a licensee fails to answer within the ten-day period or if the
Committee determines that there is reason to believe that the acts alleged occurred and constitute
a violation for which a licensee may be sanctioned by the Board, the Committee may recommend
to the Board that it issue a Statement of Allegations.
(10) Disposition by the Board. The Board shall review each recommendation which the
Committee forwards to it within a reasonable time and shall require an adjudicatory hearing if
it determines that there is reason to believe that the acts alleged occurred and constitute a
violation of any provision of243 CMR 1.03(5) or M.G.L. c. 112, § 5. The Board may take such
informal action as it deems a complaint warrants. If the Board requires an adjudicatory hearing,
it may refer the matter to a hearing officer.
(11) Suspension Prior to Hearing. The Board may suspend or refuse to renew a license pending
a hearing on the question of revocation if the health, safety or welfare of the public necessitates
such summary action. The procedure for summary suspension is as follows:

55a

243 CMR: BOARD OF REGISTRATION IN MEDICINE

1.03: continued

(a) Immediate and Serious Threat. If, based upon affidavits or other documentary evidence,
the Board determines that a licensee is an immediate and serious threat to the public health,

safety, or welfare, the Board may suspend or refuse to renew a license, pending a final
hearing on the merits of the Statement of Allegations. The Board must provide a hearing on

the necessity for the summary action within seven days after the suspension.
(b) Serious Threat. If, based upon affidavits or other documentary evidence, the Board
determines that a licensee may be a serious threat to the public health, safety or welfare, the
Board may order the licensee to file opposing affidavits or other evidence within three
business days. Based upon the evidence before it, the Board may then suspend or refuse to
renew the license, pending a· final hearing on the merits of the Statement ofAllegations. The
Board must provide a hearing on the necessity for the summary action within seven days after
the suspension.

(12) Classification of Complaints. (Reserved).
(13) Assurance of Discontinuance.
(a) 243 CMR 1.03(13) shall apply to minor violations of243 CMR 1.03(5), and, uoless
there is an allegation of patient harm, allegations of drug or alcohol impairment, as
determined within the discretion of the Complaint Committee and the Board.
(b) At the time that the Complaint Committee determines that a recommendation for a
Statement of Allegations is warranted, it may either forward such recommendation to the
Board or refer the matter to a conference including a Hearing Officer, a representative of the
Disciplinary Unit, and the Respondent. At the conference, the representative of the
Disciplinary Unit and the Respondent may submit to the Hearing Officer a proposed
Assurance of Discontinuance, which shall include:
1. Recitation of Circumstances giving rise to the Assurance of Discontinuance,
2. The Respondent's assurance of discontinuance,
3. A sanction and/or the Respondent's agreement to pay the Commonwealth's costs of
the investigation, and
4. The Respondent1s agreement that violation of the Assurance of Discontinuance shall
be primafacie evidence of violation of the applicable law, regulations or standards of
good and accepted medical practice referenced in the Assurance of Discontinuance.
(c) If the Hearing Officer approves the Assurance of Discontinuance, it shall be forwarded
to the Board for final approval.
(d) If the Hearing Officer and the Board do not approve an Assurance of Discontinuance
within 60 days of referral of the matter to the Hearing Officer for conference, or if the
Hearing Officer refers the matter back to the Complaint Committee, the Complaint
Committee shall forward its recommendation regarding issuance of the Statement of
Allegations to the Board.
(e) Pursuant to M.G.L. c. 112, § 2, the Board must report an Assurance of Discontinuance
to any national data reporting system which provides information on individual physicians.
(f) The Respondent may request that the Board not process his or her case pursuant to
243 CMR 1.03, in which event the Complaint Committee shall forward its recommendation
regarding issuance of a Statement of Allegations to the Board.
(14) Statutory Reports. The Complaint Committee, an investigator, and any ofthe Board's units
may also review and investigate any report filed pursuant to M.G.L. c. 111, § 53B,
M.G.L. c. 112, §§ 5A through 5~ or 243 CMR2.00: Licensing and the Practice ofMedicine and
3.00: The Establishment ofand Participation in Qualified Patient Care Assessment Programs,
Pursuant to MG.L. c. 112, § 5, and MG.L. c. 111, § 203. If the Board does not issue a
Statement of Allegations based upon the statutory report, the statutory report and the records
directly related to its review and investigation shall remain confidential. However, if such report
and records are relevant to a resignation pursuant to 243 CMR 1.05(5), then they shall be treated
like closed complaint files, under243 CMR l.02(8)(c)l.; provided,however, that confidentiality
of peer review documents is maintained in accordance with 243 CMR l.02(8)(c)4. and that
confidentiality of documents filed under M.G.L. c. 111, § 53B is maintained to the extent
required by law.

56a

243 CMR: BOARD OF REGISTRATION IN MEDICINE

1.03: continued
(15) Discipline When License Has Been Revoked by Operation of Law. For purposes of
administrative economy and convenience, the Board may, in its discretion, defer commencement
of formal disciplinary proceedings against a physician whose license has been revoked by
operation oflaw under the provisions of M.G.L. c. 112, § 2 or through application of243 CMR
2.06(2): Requirements for Renewing a Full.Administrative or Volunteer License. Such deferral
may be until such time as the physician takes action to complete the renewal process. The Board
shall notify the physician ofits intent to defer action under 243 CMR 1.03(15); if the physician
files a written objection within 60 days by certified, return-receipt mail, the Board shall not defer
commencement of said proceeding. Nothing in 243 CMR 1.03(15) shall be construed to bar the
Board from commencing disciplinary proceedings at anytime, including any proceedings which
may or may not have previously been deferred.
(16) Stale Matters. Except where the Complaint Committee or the Board determines othe:rwise
for good cause, the Board shall not entertain any complaint arising out of acts or omissions
occurring more than six years prior to the date the complaint is filed with the Board.
1.04: Adjudicatory Hearing.
After the Board issues a Statement of Allegations, the Board shall conduct all hearings in
accordance with 80 I CMR 1.00: Standard Adjudicatory Rules ofPractice and Procedure.
1.05: Final Decision and Order and Miscellaneous Provisions.
(1) In General. Every Final Decision and Order of the Board requires the concurrence of at
least four members, or of a majority of the Board ifit has more than one vacancy. If the Hearing
Officer is a member of the Board, his or her vote counts in the event the Board is not otherwise
able to reach a final decision.
(2) Sanctions. In disposition of disciplinary charges brought by the Board, the Board may
revoke, suspend, or cancel the certificate ofregistration, or reprimand, censure, impose a fine not
to exceed $10,000 for each classification of violation, require the performance of up to 100 hours
of public service, in a manner and at a time and place to be determined by the Board, require a
course of education or training or otherwise discipline or limit the practice of the physician. A
reprimand is a severe censure.
(3) Nature and Effect, Generally. Any order of the Board which imposes a sanction as a result
of a disciplinary action is effective immediately, unless the Board orders otherwise.
(a)
Suspension. A licensee whose certificate is suspended for a period of time is
automatically reinstated.upon expiration of the suspension period.
(b) Revocation. The cancellation or revocation of a certificate of registration is effective
for at least five years, unless the Board orders otherwise. Reinstatement thereafter may be
granted or denied in the Board1s discretion. A cancellation or revocation is lifted only
through a petition for reinstatement.
(4) Reinstatement. A person previously registered by the Board may apply for reinstatement
of his or her application no sooner than five years after revocation, unless the Board orders
otherwise. An application for reinstatement is addressed to the Board's discretion, must be made
in the form the Board prescribes, must be filed in original with ten copies, and will be granted
only if the Board determines that doing so would advance the public interest. If the Board denies
a petition for reinstatement, the Respondent shall not re-petition for reinstatement until at least
two years after the date of denial, unless the Board orders otherwise.

57a

243 CMR: BOARD OF REGISTRATION IN MEDICINE

1.05: continued
(5) Resignation.
(a) A licensee who is named in a complaint or who is subject to an investigation by the
Board or who is the respondent in a disciplinary action may submit his or her resignation by

delivering to the Board a writing stating that: he or she desires to resign; his or her
resignation is tendered voluntarily; he or she realizes that resignation is a final act which
deprives a person of all privileges of registration and is not subject to reconsideration or
judicial review; and that the licensee is not currently licensed to practice in any other state
or jurisdiction, will make no attempt to gain licensure elsewhere, or will resign any other
licenses contemporaneously with his or her resignation in the Commonwealth.
(b) If a complaint, investigation, or Statement of Allegations arises solely out of a
disciplinary action in another jurisdiction, within the meaning of243 CMR l.03(5)(a)l2.,
then the registrant may submit a resignation pursuant to 243 CMR l.05(5)(a), but need not
make any representation regarding licensure status in other jurisdictions, is permitted to gain
licensure elsewhere, and need not resign any other licenses contemporaneously with the
resignation.
( c) The Board is not obligated to accept a resignation tendered pursuant to 243 CMR 1.05.
The acceptance of such a resignation is within the discretion of the Board, and is a Final
Decision and Order subject to a vote of the Board.
( 6) Unauthorized Medical Practice. The Board shall refer to the appropriate District Attorney
or other appropriate law enforcement agency any incidents of unauthorized medical practice
which comes to its attention, as required byM.G.L. c. 112, § 5.

(7) Imposition of Restrictions. Consistent with 243 CMR 1.00 and M.G.L. c. 30A or otherwise
by agreement with the licensee, the Board may impose restrictions to prohibit a licensee from
performing certain medical procedures, or from performing certain medical procedures except
under certain conditions, if the Board determines that:
(a)
the licensee has engaged in a pattern or practice which calls into question her
competence to perform such medical procedures, or
(b) the restrictions are otherwise warranted by the public health, safety and welfare.

REGULATORY AUTHORITY
243 CMR 1.00: M.G.L. c. 13, § 10; c. 112, §§ 2 through 9B.

58a

243 CMR: BOARD OF REGISTRATION IN MEDICINE

NON-TEXT PAGE

59a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE
STANDARD ADJUDICATORY RULES OF PRACTICE AND PROCEDURE

801 CMR 1.00:
Section

1.01:
1.02:
1.03:
1.04:

Formal Rules
Informal/Fair Hearing Rules
Miscellaneous Provisions Applicable To All Adjudicatory Proceedings
Conduct of Mediation at the Division of Administrative Law Appeals
801 CMR 1.00 is promulgated pursuant to M.G.L. c. 30A. Issues not addressed in 801 CMR
1.00 or for which any party seeks clarity are to be considered in light ofthe entire M.G.L. c. 30A.
801 CMR LOO is applicable to those state administrative agencies bound by the mandate of
M.G.L. c. 30A and shall become effective 90 days after publication by the Secretary of the
Commonwealth and will govern only adjudicatory proceedings commenced after the effective
date. Existing agency rules will thus remain in effect for an indefinite period in the future,
applicable to preexisting matters.

1.01: Formal Rules
(I) Preamble. 801 CMR 1.01 of the Standard Rules of Adjudicatory Practice and Procedure

is a self-contained segregable body of regulations of general applicability for proceedings in
which formal rules are desired. An Agency must determine for any class of hearing whether to
hold hearings under 801 CMR 1.01 or 801 CMR 1.02 Informal/ Fair Hearing Rules. Agencies
shall determine based on such factors as: the volume of cases held; whether claimants are
represented by counsel; the complexity of the issues; or the applicability ofFederal fair hearings
procedures. All notices from which an Adjudicatory Proceeding can be claimed shall state which

rules apply, whether formal under 801 CMR 1.01, or informal under 80 I CMR 1.02. In addition,
all notices shall contain a notice printed in English, Spanish, Portuguese, Italian, Greek, French
and Chinese that informs the reader that the document is important and should be translated

immediately.
(2) Scope. Construction and Definitions.

(a) Scope 801 CMR 1.00 governs the conduct of formal Adjudicatory Proceedings of all
Commonwealth agencies governed by M.G.L. c. 30A.
(b)
Construction. 801 CMR 1.00 shall be construed to secure a just and speedy
determination of every proceeding.

(c)

Definitions. Refer to all definitions included in M.G.L. c 30A. In addition, the

following words when used in 801 CMR 1.01 shall have the following meanings:
Authorized Representative. An attorney, legal guardian or other person authorized by a Party
to represent him in an Adjudicatory Proceeding.
Electronic Medium. Any device used to transmit information electronically, including but
not limited to facsimile and e-mail.

Hand Delivery. Delivery by any method other than pre-paid U.S. mail, including but not
limited to private mail services.
Petitioner The Party or Agency who initiates an Adjudicatory Proceeding.
Presiding Officer The individual(s) authorized by law or designated by the Agency to
conduct an Adjudicatory Proceeding.
Respondent. The Party or Agency who must answer in an Adjudicatory Proceeding.
(3) Representation
(a)
Appearance. An individual may appear in his or her own behalf, or may be
accompanied, represented and advised by an Authorized Representative. An authorized
officer or employee may represent a corporation, an authorized member may represent a
partnership or joint venture, and an authorized trustee may represent a trust.

801 CMR-5

12/25/98

60a

APPENDIXJ

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.01: continued
(b) Notice of Appearance. Ao Authorized Representative shall appear by filing a written
notice with the Agency or Presiding Officer. Notice shall contain the name, address and

telephone nwnber, as well as facsimile number and email address of the Authorized
Representative and of the Party represented, and may limit the purpose of the appearance.
The filing by an attorney of any pleading, motion or other paper shall constitute an
appearance by the attorney who sent it, unless otherwise stated.
(4) Timely Filing. Parties must file papers required or permitted to be filed with the Agency
under 801 CMR 1.00, or any provision of applicable law, within the time provided by statute or
Agency rule. Unless otherwise provided by applicable statute or regulation, Parties must file
papers at an office of the Agency or with the Presiding Officer.
(a) Manner ofFiling. All documents must be filed by email, unless otherwise ordered by
the Presiding Officer for good cause or the Respondent or Petitioner lacks access to sufficient
Electronic Medium. Agencies must use all reasonable efforts to inform the general public
ofthe appropriate email address where documents will be accepted, such as posting the email
address on the Agency website or by other means. Papers filed by Electronic Medium shall
be deemed filed at the office ofthe Agency or with the Presiding Officer on the date received
by the Agency or Officer during usual business hours, but not later than 5 :00 P.M. Parties are
reminded of the prohibition concerning ex parte communications contained in 801 CMR
1.03(6). Parties must refrain from contacting the Presiding Officer about a matter, unless
permission is granted by the Presiding Officer and a copy ofthe communication is sent to all
other parties. If a party lacks access to sufficient Electronic Medium, Papers filed by U.S.
mail shall be deemed filed on the date contained in the U.S. postal cancellation stamp or U.S.
postmark, and not the date contained on a postal meter stamp. Papers filed by all other means
shall be considered hand-delivered, and shall be deemed filed on the date received by the
Agency during usual business hours. Any recipient of papers filed as provided in 801 CMR
1.01 (4)(a) shall stamp papers with the date received. The recipient shall provide on request
date receipts to Persons filing papers by hand-delivery during business hours. The Presiding
Officer shall make his or her best efforts to process filings delivered by mail and conduct
hearings in a reasonable and timely manner.
(b) Papers received after usual business hours shall be deemed filed on the following
business day.
(c) Notice of Agency Actions. Notice of actions and other communications from the
Presiding Officer or adjudicating Agency, or its designee, shall be delivered by email, unless
otherwise agreed upon by the parties, or directed by the Presiding Officer for good cause, or
the Respondent or Petitioner lacks access to sufficient Electronic Medium. Notice ofactions
and other communications by mail shall be presumed to be received upon the day of
hand-delivery or, if mailed, three days after deposit in the U.S. mail. The postmark shall be
evidence of the date of mailing.
(d) Computation ofTime. Unless otherwise specifically provided by 801 CMR 1.00 or by
other applicable law, computation of any time period referred to in 801 CMR 1.00 shall
begin with the first day following the act which initiates the running ofthe time period. The
last day ofthe time period is included, unless it is a Saturday, Sunday, or legal holiday or any
other day on which the office ofthe Agency is closed, when the period shall run until the end
of the next following business day. When the time period is less than seven days, intervening
days when the Agency is closed shall be excluded.
(e) Extension of Time. The Agency or Presiding Officer may, for good cause shown,
extend any time limit contained in 801 C1vfR 1.00, unless otherwise restricted by law. All
requests for extensions of time shall be made by motion before the expiration of the original
or next previous extended time period. The filing of such motion shall toll the time period
soughtto be extended until the Presiding Officer acts on the motion. 801 CMR 1.01(4)(e)
shall not apply to any limitation oftime prescribed by statute, unless extensions are permitted
by the applicable statute

(5) Filing Format.
(a) Title. Papers filed with an Agency shall be titled with the naroe of the Agency, the
docket number of the case if known, the names of the Parties and the nature of the filing.

801 CMR-6

10/30/20 (Effective 8/6/20)

61a

801 CMR: EXECUTNE OFFICE FOR ADMINISTRATION AND FINANCE
1.01: continued
(b) Signatures. Documents filed by email will be deemed to be signed by the sender, and
must include the sender's email address, street address, and telephone number. Papers filed
with an Agency shall be signed and dated by an unrepresented Party, or by a Party's
Authorized Representative, and shall state the address and telephone number of the Person
signing the document. Such signature constitutes the signer's certification that he has read
the document and knows the content thereof, that statements contained therein are believed
to be true, that it is not interposed for delay and that if the document has been signed by an
Authorized Representative that he has full power and authority to do so.
(c) Designation of Agency. An Agency designated as a Party to Adjudicatory Proceedings
shall be designated by its name and not by the individual names of those constituting the

Agency. If while the Adjudicatory Proceeding is pending, a change of employees occurs
within the Agency, the Adjudicatory Proceeding shall not abate, and no substitution of
Parties shall be necessary.
(d) Form.
1. Size and Printing Requirements. All papers filed for possible inclusion in the record
shall be clear and legible and shall be presented in accordance with the standards of the
Presiding Officer, if any, or on Agency fo1ms whenever available.
2 Agency Format. An Agency may provide forms to be used for specific purposes by
any Person or Party and use of forms provided shall be mandatory.
(e) Maintenance of Files. The papers filed in a given case shall be consolidated and
maintained in an individual folder under a unique case or docket number with additional
copies as the Agency or applicable statute may require.
(f) Service of Copies. In addition to the filing of any papers with the Agency, the Party
filing papers shall serve a copy on all other Parties to the proceedings by email, unless a party
lacks access to sufficient Electronic Medium or the Presiding Officer has ordered that papers
may be filed by a method other than email, such as either delivery in hand or prepaid U.S.
Mail. All papers filed with the Agency shall be accompanied by a statement certifying the
date copies have been served, specifying the mode of service, the name of the Party served
and the address of service. Papers served by Electronic Medium shall indicate the date
transmitted and the telephone number or electronic address used for transmittal. Failure to
comply with this rule shall be grounds for the Agency to refuse to accept papers for filing.
The means of service of copies should take no longer than the means of filing.
(6) Initiation of Formal Adjudicatorv Proceedings.
(a) Agency Notice of Action. When an Agency initiates a proceeding against a Person
regarding an Agency action or intended action, the Agency shall provide the Person with
notice ofthe action or an order to show cause why the action should not be taken. The notice
or order shall state the reason for the action. It shall specify in numbered paragraphs the
specific facts relied upon as the basis for the action, the statute(s) or regulations authorizing
the Agency to take action, and, in the case of a notice, any right to request an Adjudicatory
Proceeding.
(b)
Claim for Adjudicatory Proceeding. Any Person with the right to initiate an
Adjudicatory Proceeding may file a notice of claim for an Adjudicatory Proceeding with the
Agency within the time prescribed by statute or Agency rule. In the absence of a prescribed
time, the notice of claim must be filed within 30 days from the date that the Agency notice
of action is sent to a Party.
(c) Form and Content of Claims. The notice of claim for an Adjudicatory Proceeding shall
identify the basis for the claim. The notice shall state clearly and concisely the facts upon
which the Party is relying as grounds, the relief sought and any additional information
required by statute or Agency rule.
(d) Answer.
I. Answer to Claim. Except as statute or Agency rule may otherwise prescribe, within
21 days of receipt of a notice of claim for an Adjudicatory Proceeding, a Respondent
shall file an answer to the initiating pleading. The answer shall contain full, direct and
specific answers. The answer shall admit, deny, further explain, or state that the
Respondent has insufficient knowledge to answer with specificity the initiating Party's
allegations or claims. An allegation ofinability to admit or deny for lack ofinformation
shall be treated a-i a denial. The answer shall also contain all affirmative defenses which
the Respondent claims and may cite any supporting statute or regulation. All allegations
contained in an initiating pleading which are neither admitted nor denied in the answer
shall be deemed denied.
801 CMR-7

I 0/30/20 (Effective 8/6/20)

62a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.01: continued
2. Answer to Order to Show Cause. Except as statute or Agency rule may otherwise

prescribe, within 21 days of receipt of an order to show cause, a Respondent shall file an
answer thereto. The answer shall contain full, direct and specific answers. The answer
shall admit, deny, further explain, or state that the Respondent has insufficient knowledge
to answer with specificity the initiating Party's allegations or claims. An allegation of

inability to admit or deny for lack of infonnation shall be treated as a denial. The answer
shall also contain all affirmative defenses which the Respondent claims and may cite any
supporting statute or regulation. All allegations contained in an initiating pleading which
are neither admitted nor denied in the answer shall be deemed denied.
(e) Agency Answer. An Agency shall not be required to file an answer if, at the time the
Agency took the action being appealed, the Agency disclosed to the Petitioner the material
facts on which the Agency relied in taking such action and the statutes and/or regulations
which authorized or required the Agency to take such action.
(f) Joinder of Additional Parties and Amendments of Pleadings. If a Person is later joined
or allowed to intervene, or allowed as a substitute Party, the Presiding Officer, upon his or
her own initiative or upon the motion of any Party. may establish reasonable times for the
filing of pleadings or other documents by any additional Party. The Presiding Officer may
allow the amendment of any pleading previously filed by a Party upon conditions just to all
Parties, and may order any Party to file an Answer or other pleading, or to reply to any
pleading.
(g) Withdrawal. Any Party may, by motion, apply to withdraw a claim, a defense, or a
request for action or for review, upon terms established by Agency rule, or which the
Presiding Officer may allow in fairness to all Parties.
(7) Motions.
(a) General Requirements.
1. Presentations and Responses. An Agency or Party may by motion request the
Presiding Officer to issue any order or take any action not inconsistent with law or
801 CMR 1.00. Motions may be made in writing at any time after the commencement
of an Adjudicatory Proceeding or orally during a hearing. Each motion shall set forth the
grounds for the desired order or action and state whether a hearing is desired. Within
seven days after a written motion is filed with the Presiding Officer, any other Agency
or Party may file written responses to the motion and may request a hearing. Responses
to oral motions may be made orally at the hearing or in writing filed within seven days
according to the discretion of the Presiding Officer.
2. Action on Motions. The Agency or Presiding Officer shall, unless the Parties
otherwise agree, give at least three days' notice ofthe time and place for the hearing when
the Agency or Presiding Officer determines that a hearing on the motion is warranted.
The Agency or Presiding Officer may grant requests for continuances for good cause
sho\l/11 or may, in the event of unexcused absence of a Party who received notice, permit
the hearing to proceed. The unexcused Party's written motion or objections, if any, are
to be regarded as submitted on the written papers. The Agency or Presiding Officer may
rule on a motion without holding a hearing if delay would seriously injure a Party, or if
presentation of testimony or oral argument would not advance the Agency or Presiding
Officer's understanding of the issues involved, or if disposition without a hearing would
best serve the public interest. The Agency or Presiding Officer may otherwise act on a
motion when all Parties have responded or the deadline for response has expired,
whichever occurs first. If the Agency or Presiding Officer acts on the motion before all
Parties have responded and the time has not expired, the ruling may be subject to
modification or rescission upon the filing of one or more subsequent but timely
responses.
3. Scope of Factual Basis for Hearing on Motions. The Parties may offer at a hearing
on a motion evidence relevant to the particular motion. This evidence may consist of
statements which are presented orally by sworn testimony, by affidavit, or which appear
in admissible records, files, depositions or answers to interrogatories.
(b) Motion for More Definite Statement. If a pleading to which a responsive pleading is
required is so vague or ambiguous that a Party cannot reasonably frame a response, the Party
may, within the time permitted for such response, move for a more definite statement before
filing its answer. The motion shall set forth the detects complained of and the details
desired. If the motion is granted, the more definite statement shall be filed within ten days
of the order allowing the motion or within the deadline determined by the Agency or
801CMR-8

10/30/20 (Effective 8/6/20)

63a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

Presiding Officer.

1.01: continued
(c) Motion to Strike. A Party may move to strike from any pleading, or the Agency or

Presiding Officer may on its own motion strike, any insufficient allegation or defense, or any
redundant, immaterial, impertinent or scandalous matter.
(d) Motion to Continue. For good cause shown a scheduled hearing may be continued to
another date:
1. by agreement of all Parties with the permission of the Presiding Officer, provided the
Presiding Officer receives a letter confirming the request and agreement before the
hearing date; or
2. by written motion to continue made by a Party at least three days prior to the hearing
date; or
3. by the Presiding Officer on his or her own motion or upon a motion to continue made
at the scheduled hearing.
(e) Motion to Chanl!e Venue. Any Party may move to have a hearing held in a place other
than the scheduled location. In deciding such motions the Presiding Officer shall consider
the objections of Parties, the transportation expenses of the Presiding Officer, the possibility
of conducting the hearing by means oftelecommunication facilities, the availability ofeither
stenographic services or a suitable recording system, the availability of a neutral and
appropriate hearing site, the availability of witnesses because of their place of residence or
state of health, and other appropriate matters.
(f) Motion for Speedy Hearing. Upon motion of any Party and upon good cause shown, the
Presiding Officer may advance a case for hearing.
(g) Motion to Dismiss.
I. Grounds. Upon completion by the Petitioner of the presentation of his or her
evidence, the Respondent may move to dismiss on the ground that upon the evidence, or
the law, or both, the Petitioner has not established his or her case. The Presiding Officer
may act upon the dismissal motion when presented, or during a stay or continuance of
proceedings, or may wait until the close of all the evidence.
2. Failure to Prosecute or Defend. When the record discloses the failure of a Party to
file documents required by statute or by 801 CMR 1.00, to respond to notices or
correspondence, to comply with orders of the Presiding Officer, or otherwise indicates
an intention not to continue with the prosecution of a claim, the Presiding Officer may
initiate or a Party may move for an order requiring the Party to show cause why the claim
shall not be dismissed for lack of prosecution. If a Party fails to respond to such order
within ten days, or a Party's response fails to establish such cause, the Presiding Officer
may dismiss the claim with or without prejudice.
3. Dismissal for Other Good Cause. The Presiding Officer may at any time, on his or
her own motion or that of a Party, dismiss a case for lack of jurisdiction to decide the
matter, for failure of the Petitioner to state a claim upon which relief can be granted or
because of the pendency of a prior, related action in any tribunal that should first be
decided.
(h) Motion for Summary Decision. When a Party is ofthe opinion there is no genuine issue
of fact relating to all or part of a claim or defense and he or she is entitled to prevail as a
matter of law, the Party may move, with or without supporting affidavits, for summary
decision on the claim or defense. If the motion is granted as to part of a claim or defense that
is not dispositive of the case, further proceedings shall be held on the remaining issues.
(i) Substitution of Parties. The Agency or Presiding Officer may, on motion, at any time
in the course of a proceeding, permit substitution of Parties as justice or convenience may
require.
0) Consolidation of Proceedings. Ifthere are multiple proceedings which involve common
issues. a Party shall notify the Agency or Presiding Officer of this fact, stating with
particularity the common issues. The Agency or Presiding Officer may with the concurrence
of all parties and any other tribunal that may be involved, consolidate the proceedings.
(k) Motion to Reopen. At any time after the close of a hearing and prior to a decision being
rendered, a Party may move to reopen the record if there is new evidence to be introduced.
New evidence consists ofnewly discovered evidence which by due diligence could not have
been discovered at the time of the hearing by the Party seeking to offer it. A motion to
reopen shall describe the new evidence which the Party wishes to introduce.

801CMR-9

10/30/20 (Effective 8/6/20)

64a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.01: continued

(1) Motion for Reconsideration. After a decision has been rendered and before the
expiration of the time for filing a request for review or appeal, a Party may move for
reconsideration. The motion must identify a clerical or mechanical error in the decision or

a significant factor the Agency or the Presiding Officer may have overlooked in deciding the
case. A motion for reconsideration shall be deemed a motion for rehearing in accordance
with M.G.L. c. 30A, § 14(1) for the purposes of tolling the time for appeal.
(8) Discoverv.

(a)

General Policy and Protective Orders. The Parties are encouraged to engage in

voluntary discovery procedures. In connection with document requests, interrogatories,
depositions or other means of discovery, the Presiding Officer may make any order which
justice requires to protect a Party or Person from annoyance, embarrassment, oppression, or
undue burden or expense. Orders may include limitations on the method, time, place and
scope of discovery and provisions for protecting the secrecy of confidential information or
documents.
(b)
Document Request Procedure and Costs. After a request for an Adjudicatory
Proceeding has been filed or an order to show cause issued, a Party may serve another Party
or Agency with a document request which lists with reasonable specificity items requested
for inspection which are in the possession, custody or control of the Party or Agency
requested to provide them. A Party or Agency served with a document request shall respond
within 30 days or as otherwise detennined by the Presiding Officer. The Presiding Officer
may require a Party requesting documents to pay the Party or Agency responding to a
document request the fee per page determined by the Executive Office for Administration
and Finance.
(c) Depositions: When Permitted. After a request for an Adjudicatory Proceeding has been
filed or an order to show cause issued, the Presiding Officer may, upon motion by a Party,
order the taking of the testimony of any Person by deposition before any officer authorized
to administer oaths. The motion shall specify the name and address of each deponent and
the reasons for the deposition. The Presiding Officer shall allow the motion only upon
showing that the parties have agreed to submit the deposition in lieu of testimony by the
witness, or the witness cannot appear before the Presiding Officer without substantial
hardship. The motion shall only be allowed upon a showing by the moving Party that the
testimony sought is significant, relevant, and not discoverable by alternative means. Motions
for depositions shall be considered and acted upon in accordance with 801 CMR 1.01 (7)(a).
(d) Depositions: How Taken. Signing. Depositions shall be taken orally before an officer
having power to administer oaths. Each deponent shall be duly sworn. In instances where
sincere scruple forbids the taking of an oath, a person may affirm with the same legal effect
as having been sworn. Any Party shall have the right to cross-examine. The questions asked,
the answers given, and any objections shall be recorded. The Presiding Officer shall rule only
on objections accompanied by a reason and only in regard to the stated reason. Each
deponent shall have the option of reviewing and affinning the deposition transcript and of
indicating an affirrnance in whole or in part by signing a statement to that effect on the title
page ofthe transcript. The deponent may waive the reviewing and signing, in which case the
officer shall state the fact of the waiver in the officer's certification, and the transcript shall
then have the same status as if signed by the deponent. Subject to appropriate rulings on
objections, the Presiding Officer may receive the deposition in evidence, as if the testimony
contained therein had been given by a witness in the proceeding.
( e) Recording bv Other than Stenographic Means. The Presiding Officer may on motion
permit the testimony at a deposition to be recorded by other than stenographic means, in
which event the Presiding Officer's authorization shall designate the manner of recording,
preserving, and filing of the record of the deposition and may include other provisions to
assure that the recorded testimony will be accurately preserved.
(t) Certification of Transcript. A duplicate transcript ofthe deposition shall be certified by
the officer before whom the deposition was taken. When the deposition is introduced into
evidence, the Party requesting the deposition shall order a duplicate copy ofthe transcript and
forward a copy to the Presiding Officer.

801 CMR-10

12/25/98

65a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.01: continued
(g) Interrogatories. With the approval ofthe Agency or Presiding Officer, after arequestfor
an Adjudicatory Proceeding has been filed or an order to show cause issued, a Party may
serve written interrogatories upon any other Party for the purpose of discovering relevant
information not privileged and not previously supplied through voluntary discovery.
Interrogatories may be served by Hand-delivery, pre-paid U.S. mail or Electronic Medium.
A duplicate of all interrogatories shall be simultaneously filed with the Presiding Officer.

No Party, without the approval of the Presiding Officer, shall serve more than a total of30
interrogatories either concurrently or serially including subsidiary or incidental questions.

A Party may not serve any interrogatories less than 45 days before the scheduled hearing,
without the approval of the Agency or Presiding Officer.
(h) Answers to Interrogatories. Each interrogatory shall be separately and fully answered
under the penalties of perjury, unless an objection to the interrogatory with supporting
reasons are stated in lieu of an answer. An answer shall be served within 30 days of receipt
of an interrogatory, or within such other time as the Presiding Officer may specify. A
duplicate of all answers to interrogatories shall be simultaneously filed with the Presiding

Officer.
(i) Motion for Order Compelling Discovery. A Party may file with the Presiding Officer,
subject to 801 CMR 1.01(7)(a), a motion to compel discovery if a discovery request is not
honored, or only partially honored, or interrogatories or questions at deposition are not fully
answered. If the motion is granted and the other Party fails without good cause to obey an
order to provide or pennit discovery, the Presiding Officer, before whom the action is
pending, may make orders in regard to the failure as are just, including one or more of the
following:
1. An order that designated facts shall be established adversely to the Party failing to
comply with the order; or
2. An order refusing to allow the disobedient Party to support or oppose designated
claims or defenses, or prohibiting him or her from introducing evidence on designated
matters.
(9) Intervention and Participation.

(a) Intervention. Any Person not initially a Party, who may be substantially and specifically
affected thereby and wishes to intervene or participate in an Adjudicatory Proceeding shall
file a written petition for leave to be allowed to do so. Except as otherwise provided in

801 CMR 1.01(9), the petition shall be subject to 801CMR 1.01(7)(a).
(b) Form and Content. The petition shall state the name and address of the Person filing the
petition. It shall describe the manner in which the Person making the petition may be

affected by the proceeding. It shall state why the Agency or Presiding Officer should allow
intervention or participation, any relief sought, and any supporting law.
( c) Filing the Petition. The petition may be filed at any time following a request for an
Adjudicatory Proceeding or an order to show cause, but in no event later than the date of
hearing. Petitions may be allowed at the discretion of the Presiding Officer, for any Person

who is likely to be substantially and specifically affected by the proceeding, provided all
existing Parties are given notice and an opportunity to respond pursuant to 801 CMR

l.01(7)(a).
(d) Rights oflntervenors. The Presiding Officer may permit any Person who is likely to be
substantially and specifically affected by the proceeding. Any Person permitted to intervene
shall have all the right.sofa Party, subject to the discretion of the Presiding Officer to avoid
undue delay or unnecessary duplication of evidence, and shall be subject to all limitations
imposed upon a Party.
(e) Rights of Participants. The Presiding Officer may permit any Person who may be
affected by a proceeding may be permitted to participate. Permission to participate shall be
limited to the right to argue orally at the close of a hearing and to file an amicus brief, but
shall not necessarily make the Person allowed to participate a Party in interest who may be
aggrieved by any result of the proceeding. A Person who petitioned to intervene and who
was allowed only to participate may participate without waiving his or her rights to
administrative or judicial review of the denial of his or her motion to intervene.

S0ICMR-11

10/30/20 (Effective 8/6/20)

66a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE
1.01: continued
(t) Intervention to Protect the Environment. Any group of ten or more Persons may
intervene collectively as a Party in any Adjudicatory Proceeding according to M.G.L. c. 30A,
§ lOA, provided that intervention is limited to the issue of actual or probable damage to the

environment as defined in M.G.L. c. 214 § 7A, and the elimination or reduction thereof. The
petition to intervene pursuant to M.G.L. c. 30A, § IDA shall also state the names and
addresses of the members of the group and identify the member of the group, or the group's
attorney, or the group's agent, who will be the group's representative before the Presiding
Officer. The representative shall have the sole authority to sign papers for the group and to
accept service for the group. Any Paper served on the representative of the group shall be
deemed served on the entire group. Ifno representative is specifically stated in the petition,
the first Person mentioned in the motion to intervene as a member of the group shall be
deemed the representative of the group. A group that is permitted to intervene as a Party
shall be collectively deemed a single Party as defmed in 801 CMR 1.00.
(g) Permissive Reference. When a Party to an action relies upon any rule or regulation
issued by an Agency, other than the one conducting the proceeding as grounds for a claim
or defense, the Agency having promulgated the rule or regulation on timely application by
a Party and in the discretion of the Presiding Officer, or at the initiative of the Presiding
Officer, may offer a relevant construction, interpretation or application of the rule or
regulation in aid of the resolution of one or more of the issues involved in the Adjudicatory
Proceeding. Any request to the promulgating Agency shall be in writing and present a
neutral statement of the issue or issues possibly affected by the rule or regulation. The
promulgating Agency may respond in writing as promptly as its resources allow, but in no
event later than 30 days from its receipt of the request. The promulgating Agency may
expressly decline to respond and need not justify its position, and its failure to respond within
the time limited shall be deemed a declination to do so.
(10) Hearings and Conferences.
(a) PreRhearino Conference. The Presiding Officer may initiate or upon the application of
any Party, may call upon the Parties to appear for a conference to consider;
1. the simplification or clarification of the issues;
2. the possibility of obtaining stipulations, admissions, agreements on matters already
of record, or similar agreements which will reduce or eliminate the need of proof;
3. the limitation of the number of expert witnesses, or avoidance of cumulative
evidence, if the case is to be heard;
4. the possibility of an agreement disposing of any or all issues in dispute; and
5. such other matters as may aid in the disposition of the Adjudicatory Proceeding.
Those matters agreed upon by the Parties shall be reduced to writing and signed by them, and
the signed writing shall constitute a part of the record. The scheduling of a pre-hearing
conference shall be according to Agency rule or, in the absence of rules, solely within the
discretion of the Presiding Officer.
(b) Stipulations. In the discretion of the Presiding Officer, the Parties may, by written
stipulation filed with the Presiding Officer at any stage of the proceeding, or by oral
stipulation made at a hearing, agree as to the truth of any fact pertinent to the proceeding.
The Presiding Officer may require parties to propose stipulations. In making findings, the
Presiding Officer need not be bound by a stipulation which is in contravention of law or
erroneous on its face.
( c) Submission without a Hearing. Any Party may elect to waive a hearing and submit his
or her case upon written submissions. Submission of a case without a hearing does not
relieve the Parties from the necessity of proving the facts supporting their allegations or
defenses on which a Party has the burden of proof.
(d) Conduct of Hearing.
1. Decorum. All Parties, their Authorized Representatives, witnesses and other Persons
present at a hearing shall conduct themselves in a manner consistent with the standards
of decorum commonly observed in any court. Where such decorum is not observed, the
Presiding Officer may take appropriate action. Appropriate action may include refusal
to allow a disruptive Person to remain in the hearing room and, if such Person is a Party,
to allow participation by representative only.

801 CMR- 12

10/30/20 (Effective 8/6/20)

67a

801 CMR: EXECUTNE OFFICE FOR ADMINISTRATION AND FINANCE
1.01: continued

2. Duties of Presiding Officer. The Presiding Officer shall conduct the hearing.
administering an oath or affirmation to all witnesses, making all decisions on the
admission or exclusion of evidence and resolving questions ofprocedure. The Presiding
Officer shall file a decision or recommended decision with the Agency within a
reasonable time after the close of the hearing.
(e) Order of Proceedings.
1. Opening. In the usual case, except as otherwise required by law, in hearings resulting

from a notice of claim of an adjudicatory proceeding, the Party filing the claim shall open
and first present evidence; in hearings resulting from orders to show cause, the Agency
issuing the order shall open and first present evidence.
2. Order of Presentation. The Party taking the position contrary to that of the Party
opening shall have the right to present his or her position upon completion ofthe opening
Party's case.
3. Closin°. The Party opening shall argue last in summation.
4. Discretion of the Presiding Officer. The Presiding Officer may, when the evidence
is peculiarly within the knowledge of one Party, or when there are multiple Petitioners,
or when he or she otherwise determines appropriate, direct who shall open and may
otherwise determine the order of presentation.
(f) Presentation of Evidence. All Parties shall have the right to present documentary and
oral evidence, to cross-examine adverse or hostile witnesses, to interpose objections, to make
motions and oral arguments. Cross-examination is to follow the direct testimony of a
witness. Whenever appropriate, the Presiding Officer shall permit reasonable redirect and
recross-examination and allow a Party an adequate opportunity to submit rebuttal evidence.
Except as otherwise provided, evidence of the Respondent shall be presented after the
presentation of the Petitioner's case in chief. The Respondent shall first argue in summation.
1. Oath. A witness's testimony shall be under oath or affirmation.
2. Offer of Proof. An offer of proof made in connection with a ruling of the Presiding
Officer rejecting or excluding proffered testimony shall consist of a statement of the
substance of the evidence which the Party contends would be adduced by the testimony.
If the excluded evidence consists of evidence in documentary or written form, it shall be
filed and marked for identification and shall constitute the offer of proof.
(g) Subpoenas. The Agency or Presiding Officer may issue, vacate or modify subpoenas,
in accordance with the provisions ofM.G.L. c. 30A, § 12.
(h) Administrative Notice. The Presiding Officer may take notice offact(s), pursuant to the
requirements ofM.G.L. c. 30A, § 11(5).
(i) Transcript of Proceedings.
I. Stenographic or Recorded Records and Transcripts. Except where a Party elects to
provide a public stenographer as provided herein, the testimony and argument at the
hearing shall be recorded either stenographically or by Electronic Medium. The
Presiding Officer shall arrange for verbatim transcripts ofthe proceedings to be supplied
at cost to any Party upon request, at the Party1s own expense. The Agency may elect to
supply a copy ofthe tape, disc or other audio-visual preserving medium employed at the
proceeding to record its events in lieu of a verbatim transcript. Any Party, upon motion,
may be allowed to provide a public stenographer to transcribe the proceedings at the
Party's own expense upon terms ordered by the Presiding Officer. In this event, a
verbatim transcript shall be supplied to the Presiding Officer at no expense to the
Agency.
2. Correction of Transcript. Corrections of the official hearing transcript may be made
only to make it conform to the evidence presented at the hearing. Transcript corrections,
agreed to by opposing Parties, may be incorporated into the record, if and when approved
by the Presiding Officer. If opposing Parties cannot agree on transcript corrections, any
Party may report the fact to the Presiding Officer, who may call for the submission of
proposed corrections and shall determine what corrections, if any, are to be made with
reliance on his or her own notes.
G) Hearin2· Briefs. At the close of the taking of testimony and prior to his or her rendering
a decision, the Presiding Officer may in his or her discretion call for and fix the terms ofthe
filing of written summaries and arguments on the evidence and/or proposed findings of fact
and conclusions oflaw.

801 CMR- 13

10/30/20 (Effective 8/6/20)

68a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE
1.01: continued
(k) Settling the Record.
1. Contents of Record. The record of the proceeding shall consist of the following
items: notices of all proceedings; all motions, pleadings, briefs, memoranda, petitions,
objections, requests and rulings; evidence received, including deposition transcripts, and

offers of proof with the arguments; statements of matters officially noticed if not
otherwise documented; interrogatories and the answers; all findings, decisions and orders
presented whether recommended or final; transcripts ofthe hearing testimony, argument,

comments or discussions of record or the tape, disc or preserving medium; and any other
item the Presiding Officer has specifically designated be made a part of the record. The
record shall at all reasonable times be available at the offices of the Agency or other

designated location for inspection by the Parties.
2. Evidence after Record Closed. No evidence shall be admitted after the close of the
record, unless the Presiding Officer reopens the record.
3.
Exceptions. Formal exceptions to rulings on evidence and procedure are
unnecessary. It is sufficient that a Party, at the time that a ruling is made or sought,
makes known his or her objection to and grounds for any action taken. If a Party does
not have an opportunity to object to a ruling at the time it is made, or to request a
particular ruling at an appropriate time, the Party may submit a written statement of his
or her specific objections and grounds within three days of notification of action taken
or refused. Oral or written objections to evidentiary rulings shall be part of the record.

(11) Decisions. Unless otherwise provided by statute, decisions shall be made as follows:
(a) Direct Agency Decisions. The Agency may by regulation elect to preside at the
reception of evidence in all cases. In the absence of such regulation, the Agency may elect
to preside at the reception of evidence in particular cases and shall exercise this election by
so stating in the notice scheduling the time and place for the Adjudicatory Proceeding in the

particular case. The decision of the Agency as Presiding Officer shall be the final Agency
decision.

(b) Initial Decisions. A Presiding Officer other than the Agency who presided at the
reception of evidence shall render a decision as provided in M.G.L. c. 30A § 11(8). The
decision of the Presiding Officer shall be called an initial decision. The Presiding Officer
shall promptly provide the parties with a copy of his or her decision when filed with the

Agency.
(c) Tentative Decisions. If the Agency elects to render a decision on the record without
having presided at the reception of evidence, either by regulation or by statement in the
notice scheduling the hearing, the initial decision shall also become a tentative decision.
1. Objections and Response. The Parties shall have the opportunity to file written
objections to the tentative decision with the Agency, which may be accompanied by

supporting briefs. The Parties shall have 30 days from the filing ofthe tentative decision
or the transcript corrections under 801 CMR 1.01(10)(i)2., whichever occurs last, to file
written objections. Parties may file responses to objections within 20 days of receipt of
a copy of the objections. The Agency may order or allow the Parties to argue orally. A
Party requesting oral argument shall file the request with the Party's written objections
or response.
2. Agency Action on the Tentative Decision. The Agency may affirm and adopt the
tentative decision in whole or in part, and it may recommit the tentative decision to the
Presiding Officer for further findings as it may direct. The same procedural provisions
applicable to the initial filing of the tentative decision shall apply to any refiled tentative
decision after recommittal. If the Agency does not accept the whole of the tentative
decision, it shall provide an adequate reason for rejecting those portions of the tentative
decision it does not affirm and adopt. However, the Agency may not reject a Presiding
Officer's tentative determinations of credibility of witnesses personally appearing. The
Agency's decision shall be on the record, including the Presiding Officer's tentative
decision, and shall be the final decision of the Agency not subject to further Agency
review.
3. Failure to Issue Final Decision. If the Agency fails to issue a final decision within
180 days of the filing or refiling of the tentative decision, the initial decision shall
become the final decision of the Agency, not subject to further Agency review.

801 CMR-14

10/30/20 (Effective 8/6/20)

69a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.01: continued
(d) Final Decisions. Every decision shall be made as required in M.G.L. c. 30A § 11(8),
and shall be mechanically or electronically printed, and signed by the Presiding Officer or
by those members of the Agency making the decision. A majority of the members
constituting the Agency or the Agency panel authorized by the Agency to decide the case
shall make direct Agency decisions. A final decision shall incorporate by reference those

portions of an initial or tentative decision that are affinned and ad.opted, and may expressly
incorporate other portions it modifies or rejects with its reasons therefor. A final decision
by an Agency under 801 CMR 1.01(1 !)(c) shall make appropriate response to any objections
filed in regard to an initial or tentative decision.
(e) Decision Maker Unavailable. When a Presiding Officer becomes unavailable before
completing the preparation of the initial decision, the Agency shall appoint a successor to
assume the case and render the initial decision. If the presentation of evidence has been
completed and the record is closed, the successor shall decide the case on the basis of the
record. Otherwise, the successor may either proceed with evidence or require presentation
of evidence again from the beginning. The Agency shall provide without cost to all Parties
and the successor a copy of the official verbatim transcript, or completed portions thereof,
if not previously provided.
(t) Notice of Decision. The Agency or Presiding Officer shall promptly provide all Parties
with a copy of every Agency decision or order when filed and otherwise give prompt notice
of all Agency actions from which any time limitation commences.
(12) Telecommunications. The Presiding Officer may designate that all or a portion of a
hearing be conducted with one or more participants situated in different locations and
communicating through the medium of one or more telecommunication devices, including
telephone and video conferencing, unless the Respondent or Petitioner lacks access to sufficient
Electronic Medium.
(13) Further Appeal. After the issuance of a final decision, except so far as any provision of
law expressly precludes judicial review, any person or appointing authority aggrieved by a final
decision of any Agency in an Adjudicatory Proceeding shall be entitled to a judicial review
thereof in accordance with M.G.L. c. 30A, § 14.
(14) Withdrawal of Exhibits and Recording Media. Three years after a decision in a given case
has become final and all periods for requesting further review, whether administrative or judicial,
which may require reference to original exhibits or the reproduction or transcription of events
recorded stenographically or by Electronic Medium, have lapsed, an Agency or Presiding Officer
may in its discretion:
(a) permit the withdrawal of original exhibits or any part thereof by the Party or Person
entitled thereto; and
(b) withdraw from its file stenographic or electronic media employed to record the events
of the Adjudicatory Proceedings before it and dispose of them as it sees fit.
1.02: Informal/Fair Hearing Rules
(!) Preamble. 801 CMR 1.02 of the Standard Adjudicatory Rules of Practice and Procedure
is a self- contained segregable body of regulations of general applicability for proceedings in
which formal rules cannot be utilized or federal fair hearing procedures are applicable. An
Agency must determine for any class of hearings whether to hold hearings under 801 C:MR 1.01,
Formal Hearings, or 801 CMR 1.02. Agencies shall determine based on such factors as: the
volume of cases held; whether claimants are represented by counsel; the complexity of the
issues; or the applicability of Federal fair hearings procedures. All notices from which an
Adjudicatory Proceeding can be claimed shall state which rules apply, whether formal under
801 CMR 1.01, or informal under 801 CMR 1.02. In addition, all notices shall contain a notice
printed in English, Spanish, Portuguese, Italian, Greek, French and Chinese that informs the
reader that the document is important and should be translated immediately.

801 CMR- 15

10/30/20 (Effective 8/6/20)

70a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.02: continued
(2) Scope, Construction and Definitions.
(a) Scope aod Construction. 801 CMR 1.02 shall apply to Adjudicatory Proceedings
involving review of action or inaction of an Agency or of a Veterans' agent with respect to
a claim for benefits or services. Without intending to limit its applicability , 801 CMR 1.02
shall apply to all hearings held pursuaot to the fair hearing requirements of 7 CFR 273; 42
USC 503 (a)(3) and M.G.L. c. 151A, §§ 39 and 41. 801 CMR 1.02 shall also apply to the
hearing procedures of any other Agency which is, in whole or in part, governed by the
requirements of similar law, and to classes of hearings of any Agency for which 801 CMR

1.02 establishes minimum procedural protections for applicants or recipients in such
proceedings, and shall in no way be construed to limit the protections afforded by state or
federal Jaw.
(b) Definitions. Refer to all definitions included in M.G.L. c. 30A and in 801 CMR 1.01.
In addition, the following words when used in 801 CMR 1.02 shall have the following
meanings:

Applicant. An individual who has applied or been denied the opportunity to apply for
benefits available under any program administered by an Agency, H.C.C. or veterans' agent
appointed pursuant to M.G.L. c. 115, § 3.
ASAP. An Aging Services Access Point organized to provide services pursuant to a contract
with The Executive Office of Elder Affairs.
Benefits. Any benefit to an individual or service administered or rendered by an Agency.
Case Manager. The Person who perfonns case management services.
DALA. The Division of Administrative Law Appeals.
Division of Hearings (DTA). The Division ofHearings for the Department of Transitional
Assistance.
Electronic Medium. Any device used to preserve or transmit infonnation electronically,
including but not limited to telephone, e-mail and facsimile.
Hearing. An Adjudicatory Proceeding held under these informal rules at 801 CMR 1.02.
Institution. Any licensed hospital, nursing home or public medical institution.
Presiding Officer. The individual(s) authorized by law or designated by the Agency or
DALA to conduct an Adjudicatory Proceeding.
Recipient. A Person or family receiving benefits under a program administered by an
Agency, ASAP, or Veterans' Agent pursuant to M.G.L. c. 115, § 3.
(3) Representation.
(a)
Appearance. An individual may appear in his or her own behalf, or may be
accompanied, represented and advised by an Authorized Representative.
(b) Notice. An Authorized Representative shaU appear by filing a written notice with the
Agency or Presiding Officer. Notice shall contain the name, address and telephone number,
as well as facsimile number and e-mail address ifavailable, oftheAuthorizedRepresentative
and of the Party represented, aod may limit the purpose of the appearance. The filing by an
attorney ofany pleading, motion or other paper shall constitute an appearance by the attorney
who signs it, unless the paper states otherwise.
(c) Powers. An Authorized Representative may exercise on a Party's behalf any rights and
powers vested in that Party by 801 CMR 1.00.
(4) Time. Papers shall be filed according to the procedures set forth in 801 CMR l.01(4)(a)
through (e).

801 CMR-16

12/25/98

71a

801 CMR: EXECUTNE OFFICE FOR ADMINISTRATION AND FINANCE

1.02: continued
(5) Filing. All papers filed with the Agency, its designee, or DALA should contain the name,
address, telephone munber and signature of the sender or Authorized Representative. Papers
which do not contain all of this information shall be accepted for filing if they contain sufficient
identifying infom1ation so they can be placed in the appropriate file.

(6) Initiation of Adjudicatorv Proceedings.
(a) Notice of Agencv. ASAP or Veterans' Agent Action.

I. Requirements. Notice of action by an Agency, ASAP or Veterans' agent to deny,
terminate, reduce, or suspend services or Benefits to a Recipient or to deny Benefits or
services to an applicant shall include but not be limited to:
a. clear and plain statement of the action to be taken;
b. the date on which the action shall become effective;
c. an explanation of reasons for the action;
d. the regulation or other legal authority on which such action is based;
e. the telephone number and address where further information may be obtained;
f.
an explanation of the applicant's or recipient's right to request a hearing
(including the time limits and manner for request);
g. a copy of the form used to request a hearing;
h. an explanation of the circumstances, if any, under which Benefits or services will
continue pending an Adjudicatory Proceeding;
i.
an explanation of the right to be represented, including if applicable, the
availability of assistance; and
j. the mailing address, telephone number and office hours of the office responsible
for receiving and/or hearing appeals from the Agency action.
2. Exceptions for ASAP.
a. If a Recipient voluntarily assents in writing to a termination, reduction or
suspension of services, the ASAP shall implement the change in service in
accordance with the terms of that assent, without sending notice of action. ASAP
shall use a written assent format provided by Elder Affairs.
b. If a recipient is hospitalized or otherwise institutionalized, ASAP shall suspend
the Recipient's services as soon as feasible, without sending notice of action. Upon
discharge, the ASAP shall reassess the Recipient's service needs.
c. If an ASAP has actual knowledge that a Recipient is temporarily absent from the
ASAP service area and is therefore unavailable to receive services, the ASAP may
suspend services for the period ofthe Recipient's absence without sending notice of
action.
(b) Grounds for Appeal. A right to request an Adjudicatory Proceeding shall arise when
controversy exists which by law or Agency regulation requires an Adjudicatory Proceeding,
or when a Person is aggrieved by an Agency, ASAP, or veterans' agent action or failure to
act.
(c) Adjudicatory Proceedings - How Taken. A Person entitled to an Adjudicatory
Proceeding or his or her Authorized Representative must request a hearing in writing in the
form prescribed, or on the fonn provided by the Agency or the Presiding Officer, and must
sign and date the request. At the discretion of the Agency, the request for hearing may be
filed by Electronic Medium. The requesting Party must file with the Agency or the Presiding
Officer within the time limit prescribed by law. In the absence of any time limit, the
requesting Party must file within 60 days after receipt of the notice of action or, for failure
to act, within 120 days from application, unless the Agency has established a longer period.
(d) Continuation of Benefits Pending Appeal. Benefits shall continue when required by
applicable statute or regulation, if the Recipient or Institution has met the standard set forth
by applicable statute or regulation.
(e) Termination of Continued Benefits. Benefits continued in accordance with 801 CMR
l.02(6)(d) shall be terminated if:
1. a determination is made at the hearing that the sole issue is a challenge to the validity
of a particular law or regulation; or
2. a change affecting the Recipient's Benefits occurs subsequent to the Adjudicatory
Proceeding request which makes the previously filed Adjudicatory proceeding request
moot, and ihe Recipient fails to request a hearing on the subsequent matter within the
applicable time period; or

801 CMR- 17

12/25/98

72a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE
1.02: continued

3. a determination is made at the hearing that the Agency action to terminate Benefits
was correct.
(1) Special Requests.
(a) Withdrawals. With the approval of the Agency or the Presiding Officer, a Petitioner
may withdraw his or her request for an Adjudicatory Proceeding in a writing signed by the
Petitioner or his or her Authorized Representative.
(b) Emergency Scheduling. The Agency or the Presiding Officer. on its own or by request
of a Party, may for good cause order an accelerated hearing.
(c) Other Requests. A Party may request rulings or relief in writing at any time or orally
during a hearing. After providing notice to the other Parties, the Agency or Presiding Officer
shall rule on the request with or without a hearing.

(8) Discovery.
(a) Generallv. Parties to an Adjudicatory Proceeding are encouraged to engage in voluntary
discovery.
(b) Examination ofFile. At any time after an Adjudicatory Proceeding has been requested,
a Party and its Authorized Representative shall have adequate access to and an opportunity
to examine and copy or photocopy the entire content of his or her case file and all other
documents to be used by the Agency, ASAP, or Veterans' Agent at the hearing. The cost of
photocopying shall be detennined from time to time by the Executive Office for
Administration and Finance.
(9) Group Hearings.
(a) Purpose. A group hearing may be held if it appears from the request for a hearing or
other written infonnation submitted by the Parties that the matters involve questions of fact
which are identical, or the sole issue involves federal or state law or policy, or changes in
federal or state law. For these purposes, a change in federal or state law shall mean any
change in standards governing eligibility or limitation in the amount of time for which
Benefits or services are provided, affecting a class of Recipients or Applicants and
promulgated by state or federal law or regulation.
(b) Severance oflndividual Hearing. If, at any stage of such group hearing, the Presiding
Officer finds that any individual appeal involves questions of fact unique to the individual
Petitioner, such as the applicability ofthe law change to such Petitioner, the Presiding Officer
shall sever the appeal and hear it individually.
(10) Hearings.
(a) Adjustment of Matters Related to Hearing. A filed request for hearing does not prohibit
an adjustment in the matters at issue prior to the hearing. If as a result of an adjustment, the
Petitioner is satisfied and wishes to withdraw all or part of his or her appeal, he or she shall
file a signed withdrawal in writing with the Agency or the Presiding Officer in accordance
with 801 CMR J.02(7)(a). A hearing shall not be delayed or canceled because ofa proposed
adjustment wider consideration, unless the Petitioner requests a delay or cancellation.
(b) Submission without a Hearing. The Petitioner may elect to waive a hearing and to
submit any documents without appearing at the time and place designated for the hearing.
Submission of a case without a hearing does not relieve the Parties from supplying all
documents supporting their allegations or defenses. Affidavits and stipulations may be
employed to supplement other documentary evidence in the record.
(c) Notice of Hearing. The notice of the hearing must include the date, time, and place of
the hearing, an explanation ofthe hearing procedure and an explanation of the Party's right
to have an Authorized Representative present. Unless already provided in the notice of
action under 801 CMR 1.02(6)( a)(I ), the notice shall provide sufficient notice of the issues
involved so that the Parties may have a reasonable opportunity to prepare and present
evidence and argument. If the issues cannot be fully stated in advance of the hearing, they
shall be fully stated as soon as practicable. In all cases of delayed statement, or where
subsequent amendment of the issues is necessary, sufficient time shall be allowed after full
statement or amendment to afford all Parties reasonable opportunity to prepare and present
evidence and argument respecting the issues.

801 CMR- 18

10/30/20 (Effective 8/6/20)

73a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE
1.02: continued

(d) Dismissals for Failure to Appear. If the Petitioner fails to appear at the hearing, the
Presiding Officer shall notify the Petitioner in writing that a default will be entered against
him, unless within ten days from the date of said notice he or she files a motion for a
rescheduled hearing, and the motion is granted. In the event a Petitioner fails to appear at
the time and place of a granted rescheduled hearing, the appeal shall be dismissed and shall

include an explanation of the manner in which dismissals may be vacated. Any motions to
vacate a dismissal must be in writing, signed by the Petitioner or his or her Authorized
Representative, and directed to the Presiding Officer. Dismissals shall be vacated only for
good cause shown.
(e) Dismissal for Failure to Prosecute. The Agency or the Presiding Officer may order
dismissal for failure to prosecute in accordance with the provisions of801 CMR 1.01 (7)(g)2.
(t) Presiding Officer's Duties and Powers at Hearings. The Presiding Officer shall have the
duty to conduct a fair hearing to ensure that the rights of all parties are protected; to define
issues; to receive and consider all relevant and reliable evidence, including examining
witnesses and authorizing the Agency to pay for an independent medical examination; to
exclude.irrelevant or unduly repetitious evidence; to ensure an orderly presentation of the
evidence and issues; to ensure a record is made of the proceedings; to reach a fair,
independent and impartial decision based upon the issues and evidence presented at the
hearing and in accordance with the law; and to reconvene the hearing with notice to the
parties at any time prior to the decision being issued.
(g) Rights and Duties of Parties.
I. Each Party may present his or her own case, or may be assisted by an Authorized
Representative at his or her expense. The Party, or Authorized Representative, shall have
aright to:
a. present witnesses;
b. present and establish all relevant facts and circumstances by oral testimony and
documentary evidence;
·
c. advance any pertinent arguments without undue interference;
d. question or refute any testimony, including an opportunity to cross-examine
adverse witnesses; and
e. examine and introduce evidence from his or her case record, and examine and
introduce any other pertinent documents.
2. The Agency, in addition to the rights and duties above, at 801 CMR l.02(10)(g)l.:
a is responsible for submitting at the hearing all documented information on which
its action or motions are based;
b. shall introduce into the hearing only material which pertains to the issues; and
c. may designate and may send a staff person to the hearing to testify as to its action
or inaction. In cases involving the judgment of the Case Manager relative to
reduction, suspension, or termination of services, the Case Manager, or a person
authorized to represent the Case Manager, shall be present at the hearing.
(h) Evidence.
1. General. The Agency or Presiding Officer shall adroit and consider evidence in
accordance with M.G.L. c. 30A, § 11(2).
2. Presented at Hearing. Except as the Agency, its designee, or Presiding Officer may
otherwise order, any documentary evidence on which a decision is based must be
presented either at the hearing or, in cases submitted without a hearing pursuant to
80 I CMR l.02(10)(b), before notification that the case isready for decision. Copies of
any evidence shall be provided to all other Parties.
3. Oral Testimony. Oral testimony shall be given under oath or affirmation. Witnesses
shall be available for examination and cross-examination.
4. Stipulations. Stipulations may be used as evidence in accordance with the provisions
of801 CMR l.0l(I0)(b).
5. Additional Evidence. The Agency or the Presiding Officer may in any case require
any Party or the Agency, with appropriate notice to all other Parties, to submit additional
evidence on any relevant matter.
(i) Subpoenas. The Agency or the Presiding Officer may issue, vacate or modify subpoenas
in accordance with M.G.L. c. JOA,§ 12. Parties may issue subpoenas in accordance with
M.G.L. c. 30A, § 12(3). Witnesses may petition the Agency to vacate or modify subpoenas
in accordance with M.G.L. c. 30A, § 12(4).

801 CMR-19

10/30/20 (Effective 8/6/20)

74a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.02: continued
G) Scheduling. Upon receipt of a request for a hearing, the Agency or Presiding Officer

shall within a reasonable time register the appeal, set a date and designate a site for a hearing.
and notify all Parties. If the Petitioner has a disability or is otherwise unable to appear at the
designated site, the Petitioner may request that the hearing be held at another convenient
location. The Agency or Presiding Officer may grant such request.
(k) The Hearing Record.
1. Contents of the Record All documents and other evidence offered or taken shall
become part ofthe record, which shall be the exclusive basis ofthe decision. The record
shall at reasonable business hours be available at the offices of the Agency or other
designated location for inspection by the parties.
2. Stenographic or Taped Record. All evidence and testimony at the hearing shall be
recorded either stenographically or by Electronic Medium. The Presiding Officer shall
arrange for verbatim transcripts of the proceedings to be supplied at cost to any Party
upon request, at the Party's own expense. The Agency by rule may elect to supply a copy
of the tape, disc or other audio-visual preserving medium employed at the proceeding to
record its events in lieu of a verbatim transcript at the Party's own expense. The Agency
or the Presiding Officer may permit any Party to maintain his or her own stenographic
or electronic record.
(1) Continuances. The Agency or the Presiding Officer may continue a hearing by notifying
all parties and authorized representatives ofthe date, time and place ofthe continued hearing.
(11) Decisions. Upon completion of the hearing, the Agency or Presiding Officer shall render
a written decision as promptly as administratively feasible, in accordance with M.G.L. c. 30A,
§ 11(8).
(12) Appeals.
(a) General. Within the time prescribed by law or regulation, or within ten days where no
other time limit is prescribed, any Party entitled to further administrative review of the
decision at an Agency which has a review process, may file a request for review with the
appropriate reviewing Agency. Upon receipt of motion for administrative review, the
reviewing Agency shall notify all other parties of any hearing scheduled.
(b) DALA Appeals. For any decision adverse to a Petitioner, DALA shall send the
Petitioner a copy of the decision with a notice informing the Petitioner of his or her right to
appeal. The notice should specify:
1. that the Petitioner must make a written request for appeal within 15 days of the date
DALA mailed the notice;
2. that the Petitioner must send the written request for hearing to DALA;
3. that the Petitioner must ask for a new hearing in order to have a new hearing; and
4. that unless the Petitioner requests a new hearing, the appeal shall be limited to a
review of the record to determine if the decision was supported by substantial evidence.
1.03: Miscellaneous Provisions Applicable to All Adjudicatmy Proceedings
(1) Preamble. 801 CMR 1.03 is applicable to all proceedings held under 801 CMR 1.01 and
1.02.
(2) Amendments. The Secretary of Administration and Finance may adopt any appropriate
amendments and additions to 801 CMR 1.00 in accordance with M.G.L c. 30A, § 9. Any
Agency may make application to the Secretary of Administration and Finance for amendments
to 801 CMR 1.00.
(3) Severability. If any rule contained herein is found to be unconstitutional or invalid by a
Court of competent jurisdiction, the validity of the remaining rules will not be so affected.

(4) Exemptions. Any agency wishing to be exempted from 80 I CMR 1.00 shall apply for
exemption to the Secretary of Administration and Finance.
(5) Conflicts. No Presiding Officer who has a direct or indirect interest, perso~al involvement
or bias in an Adjudicatory Proceeding shall conduct a hearing or participate in decision-making
for the relevant Adjudicatory Proceeding.

801 CMR- 20

12/25/98

75a

801 CMR: EXECUTNE OFFICE FOR ADMINISTRATION AND FINANCE

1.03: continued
(6) Ex Parte Communications.
(a) General Provisions. In any Adjudicatory Proceeding:
1. Any member of the body comprising the Agency, Presiding Officer, or other Agency
employee who is or may reasonably be expected to be involved in the decisional process
of the Adjudicatory Proceeding:
a. shall not make or receive an ex parte communication to or from any interested

person outside the Agency relevant to the merits ofthe Adjudicatory Proceeding; and
b. shall place on the public record of the Adjudicatory Proceeding:
i. all prohibited written communications made or received;
ii. memoranda stating the substance of all prohibited oral communications made
or received;
m. all written responses, and memoranda stating the substance of all oral
responses, to the materials described in 801 CMR 1.03(6)(a)l.b.i. and .ii.; and
iv. a statement whether, in his or her opinion, the receipt of the ex parte
communication disqualifies him or her from further participation in the
Adjudicatory Proceeding, pursuant to 801 CMR 1.04(5).
2. The Presiding Officer may, upon the motion of any Party or on his or her own
motion, accept or require the submission of additional evidence of the substance of a
communication prohibited by 801 CMR 1.03(6).
3. Upon receipt of a communication knowingly niade or knowingly caused to be made
by a Party in violation of 801 CMR 1.03(6), the Presiding Officer may, to the extent
consistent with the interests of justice and the policy of the underlying statutes, require
the Party to show cause why his or her claim or interest in the Adjudicatory Proceeding
should not be dismissed, denied, disregarded, or otherwise adversely affected on account
of such violation.
4. The prohibitions of801 CMR 1.03(6) shall apply beginning at the time at which an
Adjudicatory Proceeding is initiated under 801 CMR 1.01(6) or 1.02(6), unless the
person responsible for the communication knows or reasonably should know that the
Adjudicatory Proceeding will be initiated, in which case the prohibitions shall apply
beginning at the time of such person's acquisition of such actual or constructive
knowledge.
(b) Exception. 801 CMR 1.03(6)(b) does not apply to consultation among Agency members
concerning the Agency's internal administrative functions or procedures.

1.04: Conduct of Mediation at the Division of Administrative Law Appeals
( 1) Preamble. On cases appealed to the Division of Administrative Law Appeals, or assigned
to the Division of Administrative Law Appeals for hearing, the case may be assigned to
mediation at the request of any Party. Any Party may decline assignment to mediation.

(2) Definitions. Refer to all definitions included in M.G.L. c. 30A and in 801 CMR 1.01 and
1.02. In addition, MODR shall mean the Massachusetts Office of Dispute Resolution.
(3) Mediation Referral.
(a) Internal Mediation. DALA shall supply the Parties with a list containing not less than
three DALA administrative magistrates as suggested mediators. Each Party may strike one
administrative magistrate from the list, and DALA will not assign any administrative
magistrate who has been stricken from the list to conduct the mediation. DALA shall notify
the parties of the assigned mediator. The mediator shall, within ten days of assignment,
schedule a mediation at a convenient time and location.
(b) External Mediation. By decision ofDALA or by agreement between the parties in lieu
of or following an internal mediation, a case can be referred to the Massachusetts Office of
Dispute Resolution (MODR) for mediation or other dispute resolution service. MODR will
supply the parties with a list of three suggested mediators. Each Party shall indicate to
MODR their order of preference and MODR will coordinate the selection of the mediator
and the mediation process. The Massachusetts Office of Dispute Resolution will work with
the Department of Administrative Law Appeals to develop criteria for referrals, screening
and fee policy.

801 CMR-21

10/30/20 (Effective 8/6/20)

76a

801 CMR: EXECUTIVE OFFICE FOR ADMINISTRATION AND FINANCE

1.04: continued
(4) Mediation. Mediation, either with a DALA administrative magistrate or a mediator from
the Massachusetts Office of Dispute Resolution, shall be conducted in accordance with the

following procedures.
(a) All Parties shall make available to the mediation a Person who has authority to bind the
Party to a mediated settlement.
(b) All Parties must agree in writing to the following:
1. Not to use any information gained solely from the mediation in any subsequent
proceeding;
2. Not to disclose any information gained solely from the mediation to persons not
involved in the mediation;
3. Not to subpoena the mediator for any subsequent proceeding;
4. Not to disclose to any subsequently assigned administrative magistrate the content
of the prior mediation discussion;
5. To mediate in good faith;
6. That any agreement of the parties derived from the mediation shall be binding on the
parties and, once reduced to writing and signed by all parties, will have the effect of a
contract in subsequent proceedings; and
7. That this confidentiality provision set forth in this agreement shall also apply to the
person serving as mediator.
8. If any Party fails to appear at the mediation without explanation, the mediator shall
return the matter to DALA.
9. The mediator may at any time return the matter to DALA. If the mediator was a
DALA administrative magistrate, the hearing shall be scheduled before another DALA
magistrate.
10. No particular form of mediation is required. The structure of the mediation shall
be tailored to the needs of the particular dispute. Where helpful, Parties may be
permitted to present any documents, exhibits, testimony or other evidence which would
aid in the attainment of a mediated settlement.
(c) Time Limit. Inno event shall mediation efforts continue beyond 30 days from the date
of the first scheduled mediation, unless this time limit is extended by agreement of all the
parties.
(d) Conclusion of Mediation.
I. If mediation results in agreement, mediation shall be concluded by a settlement
agreement.
2. If mediation does not result in agreement resolving the entire matter, the matter shall
be returned to DALA for scheduling appropriate subsequent proceedings at the earliest
possible time.

REGULATORY AUTHORITY

801 CMR 1.00: M.G.L. c. 30A, §§ 9 and 10.

(PAGES 23 THROUGH 26 ARE RESERVED FOR FUTURE USE.)

801 CMR-22

10/30/20 (Effective 8/6/20)

77a

